<html>
<title> - THE ROLE OF COMMUNITY COLLEGES AND INDUSTRY IN MEETING THE DEMANDS FOR SKILLED PRODUCTION WORKERS AND TECHNICIANS IN THE 21ST CENTURY ECONOMY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     THE ROLE OF COMMUNITY COLLEGES
                      AND INDUSTRY IN MEETING THE
                     DEMANDS FOR SKILLED PRODUCTION
                     WORKERS AND TECHNICIANS IN THE
                          21ST CENTURY ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-42

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
36-000                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           FRANK D. LUCAS, Oklahoma
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                             June 19, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    12

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    13

                               Witnesses:

Dr. Gerald Pumphrey, President, South Puget Sound Community 
  College
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    20

Dr. Stephen J. Fonash, Center for Nanotechnology Education and 
  Utilization, Pennsylvania State University
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    29

Mr. Eric Mittelstadt, CEO, National Council for Advance 
  Manufacturing
    Oral Statement...............................................    30
    Written Statement............................................    31
    Biography....................................................    36

Ms. Monica L. Poindexter, Associate Director, Corporate 
  Diversity, Genentech, Incorporated
    Oral Statement...............................................    37
    Written Statement............................................    38
    Biography....................................................    40

Discussion.......................................................    41

              Appendix: Answers to Post-Hearing Questions

Dr. Gerald Pumphrey, President, South Puget Sound Community 
  College........................................................    64

Dr. Stephen J. Fonash, Center for Nanotechnology Education and 
  Utilization, Pennsylvania State University.....................    66

Mr. Eric Mittelstadt, CEO, National Council for Advance 
  Manufacturing..................................................    68

Ms. Monica L. Poindexter, Associate Director, Corporate 
  Diversity, Genentech, Incorporated.............................    70


THE ROLE OF COMMUNITY COLLEGES AND INDUSTRY IN MEETING THE DEMANDS FOR 
 SKILLED PRODUCTION WORKERS AND TECHNICIANS IN THE 21ST CENTURY ECONOMY

                              ----------                              


                         TUESDAY, JUNE 19, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 3:03 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     The Role of Community Colleges

                      and Industry in Meeting the

                     Demands for Skilled Production

                     Workers and Technicians in the

                          21st Century Economy

                         tuesday, june 19, 2007
                          3:00 p.m.-5:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of this hearing is to explore the current challenges 
facing industry in meeting its needs for skilled technicians and 
production workers in advanced manufacturing and other technology 
intensive sectors. Witnesses will identify the issues contributing to 
the problem and address the mechanisms community colleges and industry 
at large are employing to increase the number of these skilled 
individuals in the workforce.

Issues

        <bullet>  What are the biggest challenges to attracting more 
        individuals to careers as skilled production workers and 
        technicians? What are community colleges and industry doing to 
        attract more individuals to these careers?

        <bullet>  What are key factors in successful partnerships 
        between tech-training programs and community colleges? How have 
        both community colleges and industry had to adapt to meet each 
        others' needs?

        <bullet>  How are community colleges training students to deal 
        with the fast-paced changes that occur in modern industry? How 
        can industry facilitate this type of learning?

Witnesses

        <bullet>  Dr. Gerald Pumphrey is the President of South Puget 
        Sound Community College, Olympia, Washington. He has had 
        extensive experience developing technician training programs 
        for community colleges and engaging industry partnerships in 
        Washington and North Carolina.

        <bullet>  Dr. Stephan Fonash is the Director of the Center for 
        Nanotechnology Education and Utilization, Pennsylvania State 
        University's Nano-Technician Advance Technology Education 
        Center. The center, developed in response to industry needs, 
        serves as a regional hub for Pennsylvania community colleges to 
        train students in advanced manufacturing.

        <bullet>  Mr. Eric Mittelstadt is the CEO of the National 
        Advisory Council for Advanced Manufacturing (NACFAM), which is 
        an industry-led, non-profit organization that develops and 
        advocates public policies that foster the growth and 
        development of the U.S. advanced manufacturing sector.

        <bullet>  Ms. Monica Poindexter is Associate Director, 
        Corporate Diversity, for Genentech, Inc., a large California 
        based biotechnology company. Ms. Poindexter has worked with 
        local community colleges to develop training programs for 
        dislocated workers and others to help meet Genentech's needs 
        for technicians and skilled production workers.

Brief Overview

    Technology and innovation have kept the American economy strong in 
the face of increasing competition in the global marketplace. Many 
reports have stated the critical importance of American science and 
engineering graduates in helping the country's economy keep pace with 
this rapid change. The National Academies' 2006 publication, Rising 
Above the Gathering Storm, is one of the most recent and influential of 
these reports. As industry moves toward producing more high-tech 
products and employing technology intensive production methods, the 
need for technologically and scientifically literate individuals at all 
levels of the workforce will increase. Thus, the need for science, 
technology, engineering, and mathematics (STEM) training is now as 
important for the worker running the production process, as it is for 
the researcher who created that process.
Manufacturing Jobs in the U.S. Economy
    The U.S. economy has lost a considerable number of manufacturing 
jobs. Still, the sector is responsible for 14 percent of the country's 
GDP and 11 percent of its employment, employing over 14 million 
workers. Despite cuts in the number of workers, productivity in 
manufacturing has increased substantially. The key to this productivity 
has been the adoption of technology by U.S. firms. Increasingly, 
production in American factories is driven by technology, giving rise 
to the term advanced manufacturing to describe the activities of 
today's factories.\1\ According to the National Council for Advanced 
Manufacturing, advanced manufacturing makes extensive use of computer, 
high precision, and information technologies and a high performance 
workforce to efficiently produce many different types of ``high-tech'' 
or commonplace products.
---------------------------------------------------------------------------
    \1\ U.S. Department of Commerce, Manufacturing in America: A 
Comprehensive Strategy to Address the Challenges to U.S. Manufacturers, 
January 2004.
---------------------------------------------------------------------------
    Many reports find that there are not enough people with the 
requisite skills to fill the manufacturing jobs that remain. Moreover, 
just as technology has fundamentally changed the nature of 
manufacturing, it has also changed or created many other jobs, such as 
environmental technicians and information technology specialists. Low-
skilled jobs, like those that used to exist at many factories, are 
increasingly rare in manufacturing; technician and production work is 
now highly specialized and highly skilled. Industry has found it 
difficult to find enough qualified workers for these jobs. The 
Manufacturing in America report cites the lack of adequately skilled 
workers for production jobs as an important issue that needs to be 
addressed to ensure the competitiveness of American manufacturing. In 
the 2005 Skills Gap Report--A Survey of the American Manufacturing 
Workforce, the National Association of Manufacturers (NAM) surveyed 
their members and found that 80 percent of manufacturing companies 
surveyed reported difficulty in finding enough skilled workers, and 90 
percent reported a shortage of skilled production employees. Similar 
findings are reported by Manpower Inc., a leading company in the 
employment services industry. Their 2007 Talent Shortage Survey Result, 
released with a corresponding white paper, found that skilled 
technician and production jobs ranked as the fourth most difficult 
positions for U.S. employers to fill and the third most difficult when 
looked at internationally. Employers today need their technicians and 
production workers to be technologically literate and have math and 
problem-solving skills, while also having ``soft skills,'' like 
communication abilities and a strong work ethic.
    Many states have studied their own industry needs and concluded 
that their workforce is lacking in the requisite skills. This issue is 
prevalent at the ``mid-level'' of preparation, referring to those that 
have post-secondary training, but not a Bachelor's degree. In a 2005 
study of the needs of New Jersey manufacturers, specialized fields like 
scientific glassware, chemical processing, and food processing were 
projected to grow in New Jersey despite an overall decline of 
manufacturing jobs. The report noted that these industries will need 
workers who ``possess the technical expertise to both understand 
underlying principles of the production process and interact 
effectively with advanced machines and computers to control these 
processes,'' and it highlighted that the state did not have enough of 
these people in its workforce.\2\ Similar reports noting the shortage 
of workers for skilled production and technician jobs can be found in 
Washington\3\, Indiana\4\, Ohio\5\, and Texas\6\.
---------------------------------------------------------------------------
    \2\ New Jersey State Employment and Training Commission, Ready for 
the Job: Understanding Occupational and Skill Demand in New Jersey's 
Manufacturing Industry, Chemical Processing, Food Processing, Glass 
Production, and Printing and Publishing, Spring 2004.
    \3\ Washington State's Higher Education Coordinating Board, State 
Board for Community and Technical Colleges, and Workforce Training and 
Education Coordination Board, A Skilled and Educated Workforce: An 
Assessment of the Number and Type of Higher Education and training 
Credentials Required to Meet Employer Demand, January 2006.
    \4\ The Indianapolis Private Industry Council, Industry 
Transformation: Growth and Change in Advanced Manufacturing in Central 
Indiana, Spring 2006.
    \5\ Rhodes State College, Building an Advanced Manufacturing 
Pathway in West Central Ohio: A Study of Manufacturing Workforce 
Development Needs, Fall 2004.
    \6\ Texas Workforce Commission, Strategic Plan: Fiscal Years 2007-
2011, 2007.
---------------------------------------------------------------------------
    State and local officials realize that the presence of skilled 
workers in their population is an important factor in the growth and 
development of industry within their borders. For instance, Arizona's 
Two-Year State Workforce Investment Plan: June 2005-June 2007 stresses 
the importance of a well trained workforce for the development of its 
economy and places increased training of workers for its high-tech 
industries as one of the state's priority goals. Furthermore, Maricopa 
Community College, in Phoenix, commissioned its own study highlighting 
the importance tech-training has on the development of the regional 
economy.\7\ Georgia is also among the states attempting to use access 
to tech-training to attract businesses to the state.\8\
---------------------------------------------------------------------------
    \7\ Battelle's Technology Partnership Practice, Prepared for 
Maricopa Community College District and the Salt River Project, 
Competing with Talent: High-Technology Manufacturing's Future in 
Greater Phoenix, December 2005.
    \8\ http://www.gaworkready.org/Technical<INF>-</INF>Colleges/
aboutTechColleges.html
---------------------------------------------------------------------------
Community College Programs
    Community and technical college programs can produce the kind of 
graduates industry needs to fill these positions. These institutions 
have long been involved in training technicians for the Nation's 
workforce, but there is now a growing awareness that community colleges 
can provide industry with the adequately skilled workers it needs. 
Serving as models for technology training, the National Science 
Foundation (NSF) Advanced Technology Education (ATE) centers at 
community colleges develop tech-training programs that prepare students 
for a wide variety of jobs in high-tech settings. This program funds 33 
centers throughout the country that offer both training for local 
community college students and a research enterprise to develop and 
disseminate best teaching and curriculum practices for fields such as 
biotechnology, chemical processing, advanced manufacturing, and 
information technology. These programs rely on a partnership between 
the community college and industry, and throughout the country other 
institutions can look to ATEs as they develop their own training 
programs.
    Feedback from both colleges and industry personnel on their 
partnerships, in general, and ATEs, specifically, is positive. 
Employers like and readily hire the graduates of these programs. 
However, community colleges face many challenges in creating and 
developing tech-training programs. Perhaps the most vexing is that 
these programs often face low enrollment. Since community colleges 
typically incur a much greater expense in capital costs and maintenance 
for these programs, they can find it difficult to begin or continue a 
program without a large number of students, especially on their 
relatively tight operating budgets. Both community college personnel 
and industry representatives claim that careers in manufacturing are 
either unknown by or considered undesirable by students and their 
parents. NAM has recently begun an outreach campaign to high school 
students to counter their negative perceptions. ATE programs also 
engage in outreach but it is unclear as to the degree of their success 
in these endeavors.
    An issue very closely related to attracting large numbers of 
students to the program is the inadequate math and science backgrounds 
of many students enrolled in community colleges. Community colleges 
must attract students to these programs, while also taking measures to 
remediate basic skills, most commonly in math. Another challenge the 
community college must address is balancing its role as a ``feeder'' 
institution for four year programs with its ability to deliver 
specialized training for industry. Though articulation between tech-
training programs and university is not always possible, community 
college administrators and tech-training faculty are increasingly 
embracing the need to endow their technology students with problem-
solving skills and an ability and willingness to learn so as to enable 
them to navigate the inevitably changing skill needs of industry.
    Highly involved industry partners are a common theme among the most 
successful tech-training programs. Representatives from both industry 
and colleges claim that a willingness to devote time and resources to 
the partnership is crucial for the program to yield the most qualified 
graduates. Studies like Manpower Inc.'s 2007 Talent Shortage Survey 
Result suggest industries partner with educational institution based 
tech-training programs to address the high need for more qualified 
workers.

Questions to Witnesses

Dr. Pumphrey was asked to address the following questions:

        <bullet>  What factors are involved in a decision by a 
        community college when deciding whether to develop or continue 
        a tech-training program in a particular field? How does the 
        college evaluate the potential impact of the program in 
        comparison to its associated costs? What are the biggest 
        challenges faced by a community college in either initiating or 
        continuing a program with low enrollment?

        <bullet>  What factors influence the low enrollment of tech-
        training programs? How can low enrollment be remedied? What 
        efforts do your college and others make to attract the widest 
        possible population of students to tech-training?

        <bullet>  What challenges does inadequate math/science 
        preparation pose to tech-training programs? Do you know of 
        colleges engaged in innovative ways of addressing this dilemma, 
        particularly through collaborating with secondary schools?

        <bullet>  What is an industry partner's ideal role in a 
        community college tech-training program? Please elaborate on 
        your experiences with industry partners.

        <bullet>  What impacts do shifts in industry demand have on 
        tech-training programs and how do community colleges address 
        these?

Dr. Fonash was asked to address the following questions:

        <bullet>  Please describe the evolution of your program--how it 
        began in response to industry's stated needs and how the 
        program has changed as the industry needs and focuses have 
        changed. Please describe how the program adjusted after the 
        drop-off in demand for semi-conductor manufacturing technicians 
        occurred around the year 2000. How do you prepare your students 
        to be adaptable to the changing needs in high-tech 
        manufacturing?

        <bullet>  What demographic profile does your program draw? How 
        have you faced the challenge of recruiting more students to 
        your program?

        <bullet>  How do you determine your math/science curriculum? 
        What steps do your partner community college institutions take 
        to ensure students can meet the demands of your program?

        <bullet>  What is the ideal role for industry partners in 
        developing and running a successful tech-training program? 
        Please elaborate on industry's role in creating skill 
        standards, developing curriculum, providing student development 
        opportunities, defraying the cost of equipment, and hiring 
        graduates.

Mr. Middlestadt was asked to address the following questions:

        <bullet>  How have the labor needs of the manufacturing sector 
        changed, and what do the current and near-future opportunities 
        look like for graduates of tech-training programs? Are there 
        technician shortages in advanced manufacturing and is the 
        problem more concentrated in particular industries?

        <bullet>  What steps, such as increasing wages, benefits, and 
        training, or being more flexible with their hiring 
        qualifications are companies taking to attract more students to 
        careers as skilled technicians and production workers? Also, 
        what are companies individually and collectively doing to raise 
        the perception of manufacturing careers among current students 
        and potential students?

        <bullet>  What influences a company's decision to take an 
        active partnership role in advising a community college tech-
        prep program? From an industry point of view, what factors 
        foster a successful partnership? To what extent can particular 
        industries prepare training programs for changes in the skills 
        they need?

        <bullet>  One of NACFAM's current focuses is on STEM education. 
        Can you please describe how deficiencies in STEM education 
        affect a company at the technician and production worker level 
        of its workforce?

Ms. Monica Poindexter was asked to address the following questions:

        <bullet>  Please describe how Genentech's partnership with 
        local community colleges began, how it currently operates, and 
        its plans for future directions. What factors contribute to the 
        development and maintenance of a successful program? What 
        challenges did you need to address in developing this program?

        <bullet>  What is the ideal role for the community college in 
        providing training for your future employees?

        <bullet>  How does Genentech benefit from hiring community 
        college graduates? How important are well qualified technicians 
        and production workers to your business?

        <bullet>  What opportunities does Genentech provide to its 
        technicians and skilled production workers to develop new 
        skills as your industry changes?

        <bullet>  How can community colleges and industry attract more 
        people to careers as technicians and skilled production 
        workers?
    Chairman Baird. Good afternoon. I would like to welcome 
everybody to today's hearing which will look at the vital role 
skilled production workers and technicians play in today's 
workforce.
    The Science and Technology Committee as a whole, and this 
subcommittee, particularly, is focused on improving math and 
science education. In this technology-driven world, giving our 
students a thorough science, technology, engineering, and 
mathematics, or as we say, STEM, education is the best way to 
ensure that they, and our country, will stay competitive and 
prosperous.
    Reports like the National Academies' Rising Above the 
Gather Storm, have sent up a number of red flags warning that 
we are not graduating nearly as many scientists and engineers 
to keep up with the growing economies in China and India.
    Similarly troubling are recent reports that we may not have 
enough qualified individuals to take the production jobs and 
technician jobs that keep U.S. manufacturing and other 
industries running. According to the National Association of 
Manufacturers, 80 percent of their survey respondents report 
difficulties in finding qualified people to run their 
production processes and serve as technicians. Other State and 
regional studies report that manufacturers in their areas are 
experiencing the same difficulties.
    It is well known that U.S. manufacturing has lost a 
significant number of jobs in recent years, whether to off-
shoring or automation; but this is only part of the story. Our 
manufactures have embraced technology and lean production 
methods to stay competitive within the global economy. This, in 
turn, has shifted the labor requirements away from unskilled 
workers to skilled, technology-literate men and woman who can 
run and maintain complex machines and produce a high-quality 
product. These jobs do not require a Bachelor's degree at all 
times, but they do require specialized knowledge; a good 
understanding of technology, math and science; good problem-
solving skills and strong communication skills. And since the 
footprint of technology has profoundly changed many jobs, it is 
not just the manufacturers that rely on people with these 
skills.
    Unfortunately, however, today's students do not seem 
motivated to go into manufacturing or purse technician jobs. 
Many are unaware that manufacturing is a good career path or 
that the jobs are even available. Their impressions, shaped by 
parents, teachers, and the media, often see factories, and 
hence manufacturing, as dirty and dreary. As our witnesses, 
however, will attest today, this is not the case in modern 
factories, which are clean and not at all characterized by 
drudgery. As increasing numbers of ``baby-boomers'' retire, 
changing the impression of young people will be an important 
part of recruiting more young people to these jobs.
    Offering our students training opportunities for promising 
careers is just as important as changing their perceptions. 
Community colleges can provide this bridge to students--those 
fresh from high school as well as older students who may be 
retraining for other work. Many of these schools offer tech-
training programs that prepare students with the kinds of 
skills now highly in demand by industry.
    The National Science Foundation funds the operation of 33 
centers around the country that are at the forefront of tech-
training education. Specializing in training for careers as 
diverse as environmental technician or micro-systems 
specialist, these centers offer excellent training to students 
at their host institutions and work to provide community 
colleges across the country with best practices in curriculum 
and industry skill standards. These centers maintain strong 
partnerships with industries that guide the development of a 
program. One of the important focuses of this hearing is how 
these partnerships between community colleges and industry 
create the programs that are most beneficial to students and to 
their future employers.
    As we will hear this afternoon from our outstanding 
witnesses, community colleges face steep challenges to 
implementing these important programs. Mainly, the programs 
suffer from unfortunately low enrollment in some cases, which 
makes them difficult to develop and maintain on a community 
college's tight budget. Also the schools must deal with the 
reality that many of their students are not adequately prepared 
coming in, in basic math and science to immediately enter these 
programs, which sometimes discourages potential applicants. 
These are challenges that must be addressed if the country is 
to have a workforce that is congruent with industry needs.
    Most importantly, I hope this hearing will highlight that 
it is time to get serious about better equipping all students 
to compete in the global economy. There are good jobs waiting 
to be had, and if we don't want to lose those jobs because 
companies can't find qualified employees here in the U.S., we 
need to act. And I look forward to the comments of our 
outstanding witnesses today.
    And with that, I now recognize Dr. Ehlers for an opening 
statement.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good afternoon. I'd like to welcome everybody to today's hearing 
which will look at the vital role skilled production workers and 
technicians play in today's workforce.
    The Science and Technology Committee as a whole, and this 
subcommittee especially, is very focused on improving math and science 
education. In this technology driven world, giving our students a 
thorough science, technology, engineering, and mathematics--or STEM--
education is the best way to ensure that they, and our country, will 
stay competitive and prosperous.
    Recent reports, like the National Academies' Rising Above the 
Gathering Storm, have sent up red flags warning that we are not 
graduating nearly as many scientists and engineers to keep up with the 
growing economies in China and India.
    Similarly troubling are recent reports that we may not have enough 
qualified individuals to take the production jobs and technician jobs 
that keep U.S. manufacturing and other industries running. According to 
the National Association of Manufacturers, 80 percent of their survey 
respondents report difficulties in finding qualified people to run 
their production processes and serve as technicians. Other State and 
regional studies report that manufacturers in their areas are 
experiencing the same difficulties.
    It is well known that U.S. manufacturing has lost a significant 
number of jobs in recent years either to off-shoring or automation. But 
this is only part of the story. U.S. manufacturers have embraced 
technology and lean production methods to stay competitive within the 
global economy. This has shifted the labor requirements away from 
unskilled workers to skilled, technology-literate men and women who can 
run and maintain complex machines and ensure a high-quality product 
These jobs do not require a Bachelor's degree, but they do require 
specialized knowledge; a good understanding of technology, math, and 
science; good problem solving skills and good communication skills. 
And, since the footprint of technology has profoundly changed many 
jobs, it's not just manufacturers that rely on people with these 
skills.
    Unfortunately, today's students do not seem motivated to go into 
manufacturing or pursue technician jobs. Many of them are unaware that 
manufacturing is a good career path or that these jobs are even 
available. Their impressions, shaped by parents, teachers, and the 
media, see factories as dirty and dreary. As I'm sure our witnesses 
will attest today, this is not the case in many modern factories, which 
are clean and not characterized by drudgery. As increasing numbers of 
``baby-boomers'' retire, changing the impressions of young people will 
be an important part of recruiting more young people to these jobs.
    Offering students training opportunities for promising careers in 
these fields is just as important as changing their perceptions. 
Community colleges can provide this bridge to students- those fresh 
from high school and as well as older students. Many of these schools 
offer tech-training programs that prepare students with the kinds of 
skills now highly in demand by industry.
    The National Science Foundation funds the operation of 33 centers 
around the country that are at the forefront of tech-training 
education. Specializing in training for careers as diverse as 
environmental technician or micro-systems specialist, these centers 
offer excellent training to students at their host institutions and 
work to provide community colleges across the country with best 
practices in curriculum and industry skill standards. These centers 
maintain strong partnerships with industry that guide the development 
of a program. One of the important focuses of this hearing is how these 
partnerships between community colleges and industry create the 
programs that are most beneficial to students and their future 
employers.
    As we will hear this afternoon, community colleges face steep 
challenges to implementing these important programs. Mainly, the 
programs suffer from low enrollment, making them difficult to develop 
and maintain on a community college's tight budget. Also, the schools 
must deal with the reality that many of their students are not 
adequately prepared in math and science to immediately enter these 
programs, which discourages potential applicants. These are challenges 
that must be addressed if the country is to have a workforce that is 
congruent with industry's needs.
    Most importantly, I hope this hearing will highlight that it's time 
to get serious about better equipping ALL students to compete in the 
global economy. These are good jobs and it we don't want to lose them 
because companies can't find enough qualified employees here in the 
U.S.

    Mr. Ehlers. Thank you, Mr. Chairman.
    A century-and-a-quarter ago, 80 percent of our workforce 
worked on farms. That began to change at that time, with the 
beginning of the industrial era. Most of the workers did not 
have a high school education, but they didn't need it for the 
industries of that time, the manufacturers, for two reasons. 
First of all, the manufacturing process was fairly simple. 
Secondly, when you grow up on a farm, you learn an immense 
amount about machinery. You live with tools. You learn how to 
make things and do things, and so they transferred very easily 
into the industrial workplace and into manufacturing. Today, 
technical training and jobs have change significantly since 
that time and even since I joined the workforce. At that time, 
many manufacturing workers did not need a high school diploma 
to do their job well, and if they had a high school diploma it 
was a definite plus. Things have changed. Today, we hear from 
employers that the K-12 education system is not sufficiently 
training students to meet the demand for technically-skilled 
positions. My mantra has been that all jobs require a basic 
understanding of science and math and technical jobs are no 
exception. We must improve science, technology, engineering and 
math literacy for all students.
    It is interesting that the international tests that have 
been done to compare our K-12 educational system with the 
equivalents in other countries have made our system look very 
bad, very deficient. And I believe that it is extremely 
important that the community colleges and industry have stepped 
in to fill the gap. Both of them have done this each in their 
own way. Despite the challenges facing our K-12 system, our 
workforce still remains globally competitive, so how can it be 
that we are doing less well in K-12 education than all of the 
other nations, and yet we are competitive. As I said, it is due 
to community colleges filling the gap between a high school 
education and employment. And furthermore, these institutions 
prepare students for the workforce, lay a foundation for 
further study at four-year institutions and provide continuing 
education for experienced workers. I do not believe community 
colleges receive the recognition they deserve for providing 
these education services critical to our economy.
    Another factor is the training that industry itself has 
provided. It may shock you to know--it certainly did when I 
first heard it--that the amount spent by industry, both on 
remedial training for lack of education as well as upgrading 
education to handle more technically complex equipment, the 
total amount they spend exceeds the total amount the Federal 
Government uses to fund elementary and secondary education. 
That is a huge drain on our financial resources in industry. If 
we could only do better in the school systems, then the 
industry and the manufacturing would be far more efficient.
    In its 2005 survey of the U.S. manufacturing workforce, the 
National Association for Manufacturers found that skill 
shortages are extremely broad and deep, cutting across industry 
sectors and impacting more than 80 percent of the companies' 
surveys. In fact, the shortage is so severe in some cases that 
some positions remain unfilled for long periods of time.
    I am glad that industry is taking action to address the 
skills gap, as I mentioned earlier, but in addition to that, 
they are working with educational institutions to develop 
innovative mechanisms to attract students to these fields 
instead of relying purely on traditional recruiting strategies. 
Companies have identified the high performance skills in their 
workforce as the most critical component of their future 
business success. In Michigan, manufacturing accounts for 
almost 20 percent of the state's GDP. Nationwide, our workforce 
in manufacturing is 14 percent. In agriculture, now, it is less 
than two percent, a major shift in our economy in 125 years.
    Like our witnesses today, our Grand Rapids Community 
College, in my district, and the Michigan Small Business and 
Technology Development Center are working to alleviate the 
skills gap between industry and education in my region. The 
Federal Government supports these goals through programs such 
as Workforce Innovation and Regional Economic Development, the 
WIRED program, and the Manufacturing Extension Partnership 
Program, better known as the MEP. I am a strong supporter of 
both. Unfortunately, we have not had a lot of strong support 
for the MEP program, but the WIRED program is very successful, 
and the remnants of the MEP program are also successful.
    I note that some of today's submitted witness testimony 
addresses the need to reverse the waning student interest and 
negative perception of these fields. The historic perception 
that technical fields are dark, dirty, dangerous, and dull, to 
add to your description, reflects the larger cultural battle we 
are fighting about how young people perceive science and 
technology. I look forward to working with each of you and my 
colleagues on making science and math more approachable and 
subsequently shifting attitudes towards technical education and 
employment.
    I thank our witnesses for being here today to discuss these 
important issues, and I thank Chairman Baird for organizing 
this hearing. Thank you.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Technical training and jobs have changed significantly since the 
time I entered the job market. At that time, many manufacturing workers 
did not need a high school diploma to do their job well. Things have 
changed! Today, we hear from employers that the K-12 education system 
is not sufficiently training students to meet the demand for 
technically-skilled positions. My mantra has been that all jobs require 
a basic understanding of science and math and technical jobs are no 
exception. We must improve science, technology, engineering and math 
literacy for all students.
    Despite the challenges facing our K-12 system, our workforce still 
remains globally competitive. I believe that is largely due to 
community colleges filling the gap between a high school education and 
employment. These institutions prepare students for the workforce, lay 
the foundation for further study at a four-year institution, and 
provide continuing education for experienced workers. I do not believe 
community colleges receive the recognition they deserve for providing 
educational services critical to our economy. In its 2005 survey of the 
U.S. manufacturing workforce, the National Association for 
Manufacturers found that skill shortages are extremely broad and deep, 
cutting across industry sectors and impacting more than 80 percent of 
companies surveyed. In fact, the shortage is so severe in some cases 
that some positions remain unfilled for long periods of time. I am glad 
that industry is taking action to address the skills gap and working 
with educational institutions to develop innovative mechanisms to 
attract students to these fields, instead of relying purely on 
traditional recruiting strategies. Companies have identified the high-
performance skills of their workforce as the most critical component of 
their future business success. In Michigan, manufacturing accounts for 
almost twenty percent of the state's GDP. Like our witnesses today, 
Grand Rapids Community College and the Michigan Small Business and 
Technology Development Center are working to alleviate the skills gap 
between industry and education in my region. The Federal Government 
supports these goals through programs such as the Workforce Innovation 
and Regional Economic Development (WIRED) and the Manufacturing 
Extension Partnership Program (MEP).
    I note that some of today's submitted witness testimony addresses 
the need to reverse the waning student interest and negative perception 
of these fields. The historic perception that technical fields are 
``dark, dirty, dangerous and dull'' reflects the larger cultural battle 
we are fighting about how young people perceive science and technology. 
I look forward to working with you and my colleagues on making science 
and math more approachable and subsequently shifting attitudes towards 
technical education and employment.
    I thank our witnesses for being here today to discuss the important 
topic of educating skilled technicians, and thank Chairman Baird for 
organizing this hearing.

    Chairman Baird. Thank you, Dr. Ehlers. I also want to 
acknowledge the presence of Mr. Miller, the Chair of the 
Oversight Committee, and the gentleman from Maryland, Dr. 
Bartlett. If there are any Members who wish to submit 
additional opening statements, those statements will be added 
to the record at this point.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman.
    Community colleges play a key role in providing access to 
tomorrow's high-technology workforce.
    Of particular interest to me are minority-serving institutions such 
as Historically Black Colleges and Universities and their importance in 
training students to fill tomorrow's high-tech jobs.
    In Texas, there are near 50 minority serving institutions, 
including Paul Quinn College in the Dallas area. Minority-serving 
institutions contain disproportionately high enrollments of African 
American, Hispanic, and Native American students.
    My district, in Dallas, contains a majority of individuals who are 
Black and Hispanic. Over the years, I have worked to increase federal 
efforts to encourage these groups to pursue careers in science, 
technology, engineering and math.
    The U.S. Census reports that Hispanics are already the largest 
minority population in the country, and the numbers are growing.
    Hispanics are projected to account for more than 16 percent of the 
U.S. population in 2014.
    Hispanics are expected to account for 24 percent in 2050.
    These increases will affect the racial and ethnic make-up of 
enrollment rates at colleges and universities, and I predict that 
Minority Serving Institutions will become even more important in 
creating educational opportunities.
    Today's witnesses will share with Subcommittee Members the 
challenges faced in attempting to serve this segment of the future 
high-tech workforce as well as strategies for success at smaller 
colleges and universities.
    Again, welcome to today's witnesses.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this hearing to examine the 
challenges facing advanced manufacturing industry in attracting skilled 
production workers and technicians, and to consider the role of 
community colleges in recruiting and training students for these 
careers.
    As the demand for high-skilled, high-tech production workers 
increases, manufacturing companies have found the supply of well-
trained employees lacking such that the growth and development of 
industry may be threatened. I look forward to exploring ways that 
Congress can help to counteract this disturbing trend.
    Numerous reports such as the 2005 Skills Gap Report--A Survey of 
the American Manufacturing Workforce have shown that eighty to ninety 
percent of manufacturing companies are having difficulty finding 
skilled production workers, a role which is rapidly surpassing that of 
low-skilled employees. While community colleges have been identified as 
one of the best sources of training for such jobs, lack of funding, low 
enrollment, and students' inadequate math and science backgrounds 
create major obstacles, severely limiting the technical training these 
institutions can offer.
    Today's hearing focuses on the important task of bolstering the 
ability of America's community colleges, in collaboration with industry 
partners, to develop and publicize successful tech-training programs. I 
am eager to hear our witnesses' assessments of the programs and 
partnerships implemented thus far so that we can reflect on the 
successes and inefficiencies of the current strategies and seek to make 
modifications for improvement. Your first-hand experiences are vital to 
overcoming the technician shortage through technical education programs 
and industry support.
    To all the witnesses--thank you for taking time out of your busy 
schedules to appear before us today. I look forward to hearing your 
testimony.

    Chairman Baird. And now it is my great privilege to 
introduce our witnesses, and I will start with a friend from my 
home district, who is the very distinguished president of South 
Puget Sound Community College, who has also served as president 
of Bellingham Technical College and held positions at Guilford 
Technical in North Carolina. Dr. Pumphrey, thank you for being 
here.
    Dr. Stephen Fonash is the Director of Penn State's Center 
for Nanotechnology Education and Utilization and is an active 
researcher in the field of nanotechnology.
    Mr. Eric Mittelstadt is the Chief Executive Officer of the 
national Counsel for Advance Manufacturing. He has been very 
active in industry, serving as the Chair of America's leading 
robotics manufacturer, FANUC, among many other projects and 
activities. Mr. Mittelstadt, thank you for being here.
    And finally, Ms. Monica Poindexter, who is currently 
Director of Corporate Diversity at the California-based 
Genentech, Incorporated. Her work in workforce development for 
Genentech led to the company's colaboration with community 
colleges to train technicians for the biotech industry.
    So we have got an outstanding panel of witnesses to address 
precisely the questions before us today. As our witnesses 
should know from our prior communications, we try to keep the 
testimony limited to five minutes. Under Dr. Ehlers's term as 
Chair, we had a push-button up here that has a trapdoor below 
your seat, and you get about a 15-second grace period, and then 
you vanish, and we shall carry on without you. So try to keep 
it down to five minutes. I know these are tremendously 
important topics. We will have a good opportunity for give-and-
take in the questioning, so we very much appreciate your 
presence, and we shall just work from the left to the right as 
we look at it.
    Dr. Pumphrey, please, enlighten us with your remarks.

STATEMENT OF DR. GERALD PUMPHREY, PRESIDENT, SOUTH PUGET SOUND 
                       COMMUNITY COLLEGE

    Dr. Pumphrey. Thank you, Chairman Baird, Dr. Ehlers, 
Members of the Committee. I have been asked to respond to a few 
questions. The first series of questions is ``what factors are 
involved in the decision by a community college when deciding 
whether to develop or continue a technical training program in 
a particular field?'' How does the college evaluate the 
potential impact of the program in comparison to its associated 
costs, and what are the biggest challenges faced by a community 
college in either initiating or continuing a program with low 
enrollment?
    First, I would say that it is useful to think of a publicly 
funded community college as a state-assisted business, because 
we do very much operate on a business model. It happens that 
our capital facilities and a substantial portion of our revenue 
in the State of Washington are provided by the state, but the 
students' tuition and fees are part of that revenue stream as 
well. So when we look at an opportunity to start a new 
technical training program, we are looking at employment demand 
and differentiating amounts of growth, retirements and 
turnovers, and the potential costs. We are also looking at the 
potential for student demand.
    We evaluate potential new programs as a business 
opportunity by looking at the cost and availability of faculty, 
facilities, and technology and also the willingness of the 
industry sector to collaborate on curriculum. Given that our 
margins are often very thin, we need to evaluate the 
possibility of external funding to help offset startup and/or 
operating costs for highly specialized or technically 
sophisticated programs, and the more specific it is, the more 
likely we are to need external help to do it.
    And there are the political considerations around program 
approval and accreditation requirements and other sorts of 
issues. We have to understand whether another college offers a 
similar program within geographic proximity, and that is why we 
have State-approval boards.
    There are two big challenges as I see it. The first is our 
ability to respond at industry's pace. We are not organized 
like industry, and it's very difficult for us to move as 
quickly as industry does, and that, in fact, is one of my 
greatest fears for the effectiveness of community colleges over 
time. The second challenge is around capitalization, where you 
get the money to respond with.
    We really do run these technical programs as separate 
business units, so we are paying a lot of attention to 
enrollment and its effect on revenue. If we do not have the 
students in the program, it is very difficult for us to sustain 
it.
    The next set of questions surround what factors influence 
the low enrollment of technical training programs and how the 
low enrollment can be remedied, and what efforts do yours and 
other colleges make to attract the largest population of 
students to technical training. Well, there is a fundamental 
problem these days in the technical trades: 40 percent of the 
enrollment in higher ed. in the U.S. is by males, 60 percent by 
females. If you are looking at manufacturing, that is a 
traditionally male-dominated industry. It need not be so. There 
are many women in a wide variety of careers, and many of us 
have special outreach programs to recruit women, but that is a 
fundamental problem for recruitment.
    Student interest in the program is driven by a variety of 
factors, including wages, advancement opportunities, perceived 
working conditions, visibility of the industry, the 
availability of alternative opportunities, the relative effect 
of education or training on employment prospects. If the job is 
available without education or training, that is a deal breaker 
for students interested in enrolling in the program. Colleges 
do employ a wide variety of outreach efforts in high schools. 
Many of us have tech-prep programs. We have articulated dual-
credit arrangements. We have outreach coordinators that work 
with the high school to communicate the opportunities. These 
work better when industry goes with us. We are selling 
training; the industry is selling the jobs. The student is 
interested in the job, so we are more effective when we work 
together on that.
    The last set of questions were what challenges does 
inadequate math/science preparation pose to technical training 
programs. Do you know of colleges involved in innovate ways of 
addressing this dilemma, particularly in collaboration with 
secondary schools? I can tell you that inadequate math and 
science preparation has an impact on the operating budgets of 
the college, because we have to divert substantial resources 
from college-level work to remedial work, whether it is in 
literacy through adult basic education, the GED program, 
English as a Second Language--all of which are vital parts of 
our mission, but they are not college-level work--also through 
the developmental education programs that we run that take 
students who need some amount of brushing up on their math 
skills in particular to bring them up to entry level for 
college-level courses, so it is a diversion of effort. It is a 
diversion of money, and we are proud to do it because it is an 
absolutely vital service for our community, but typically that 
is not funded at the same level as college-level work.
    Ultimately, as much as we would like to say it is not the 
case, I feel it has an impact on the quality of the graduates 
that we put out. We know that the longer a student spends in 
remedial or developmental education, the less likely they are 
ever to make it into college-level work. There is a certain 
threshold they have to meet to get there.
    And I think I am out of time, so I will stop here.
    [The prepared statement of Dr. Pumphrey follows:]

                 Prepared Statement of Gerald Pumphrey

What factors are involved in a decision by a community college when 
deciding whether to develop or continue a tech-training program in a 
particular field? How does the college evaluate the potential impact of 
the program in comparison to its associated costs? What are the biggest 
challenges faced by a community college in either initiating or 
continuing a program with low enrollment?

    Good afternoon, Chairman Baird, Ranking Member Ehlers, and Members 
of the Subcommittee on Research and Science Education. I thank you for 
the opportunity to testify before your subcommittee today. My name is 
Gerald Pumphrey, and I am President of South Puget Sound Community 
College. It is my privilege to speak with you today on the topic of 
technician education. It is a topic within my experience at four 
community and technical colleges in the States of Washington and North 
Carolina, and as a consultant within the Program Development Services 
section of the State Board for Community Colleges in North Carolina.
    Community and technical colleges initiate technical training 
programs in response to employment demand, most often in the geographic 
region they serve. Employment demand often results from the growth of 
an industry and thus job openings within it. Also, the pending wave of 
retirements by baby-boomers will require replacement of skilled workers 
in many technical occupations. In other cases, increasing 
sophistication of technology will require retraining of incumbent 
workers and a higher level of education for entry-level workers. A 
sustainable and sufficient level of job openings for graduates is a 
necessary condition for any successful technical education program. 
Programs that serve a cluster of similar or related industries are 
usually more stable than one that serves a single large industry.
    Prior to starting a new program, community and technical colleges 
will verify that career entry into the targeted occupation or range of 
occupations requires education and skills that are appropriate to a 
certificate or an associate degree. If these knowledge and skill 
requirements are minimal, the college may explore a customized skill 
training approach rather than a full program with permanent facilities, 
equipment, and faculty. If the program demands more extensive 
theoretical preparation and skill development than can be provided at 
the associate degree level, the college may partner with a university 
or pass up the opportunity altogether.
    As a condition for creating a new program, colleges will assess the 
potential for student enrollment demand, sometimes directly through 
surveys of high school students, groups of incumbent workers, or 
unemployed workers. This phase of exploration usually includes a study 
of potential starting wages and career progression opportunities. If 
there is no positive differential in the starting wage of a training 
program graduate, student demand for the training is likely to be 
suppressed. Likewise, the ability to advance in the career by initial 
hiring is a positive indicator for starting a new technical education 
program.
    If the college is governed by a State board or other program 
approval authority, it may be required to demonstrate that initiating a 
new program is not unduly competitive with similar programs at other 
colleges in its geographic proximity. The college may take under 
consideration whether a new program will have a synergistic or 
competitive relationship with its own existing programs. Often, a 
college will weigh the prospects of success for the proposed program 
and the potential benefit it offers its community. If the proposed 
program is understood to be critical to local economic development or 
services in the community, the college may engage in intense political 
activity on its own campus or before the body that has authority to 
approve the program.
    Ideally, curriculum will be designed in conjunction with industry 
partners. Other considerations in curriculum development potentially 
include requirements for external program-level accreditation, 
industry-wide skill standards, and licensure standards for graduates, 
etc. Close collaboration with industry at this stage of program design 
is essential to successful technician education.
    The academic and technical curriculum content drives requirements 
for faculty, facilities, and equipment. As technology becomes more 
specialized and advanced, colleges can face difficulty in finding and 
affording qualified faculty. Colleges may face constraints in the 
availability of classroom/laboratory space, particularly when programs 
require specialized electrical, mechanical, or data connections. 
Colleges vary widely in their ability to acquire and maintain 
sophisticated equipment, and the rapid evolution of technology makes 
this a particularly daunting task. Some technician education programs 
experience high costs for consumable supplies, utilities, and software 
licensing agreements.
    Before making a decision to implement a new program, the college 
must determine if it can muster the operating and capital funds to 
sustain it. Sources often include revenue from State funding, tuition, 
fees, and external training contracts. Colleges often face multiple, 
simultaneous opportunities to develop technical education programs, and 
usually must engage in a comparative cost analysis and reach some 
judgment concerning opportunity costs. In many cases, support from the 
relevant industry is essential to start and continue operation of the 
program.

What factors influence the low enrollment of tech-training programs? 
How can low enrollment be remedied? What efforts do your and other 
colleges make to attract the widest possible population of students to 
tech-training?

    Low enrollment in technical training programs can result from a 
variety of external and internal factors. Among the external causes, 
the perception of a lack of employment opportunities can be a strong 
influence. In 2007, many colleges' information technology programs are 
only now recovering from enrollment declines that followed the 
recession in that industry after 2001. If it is possible to begin a 
career without technical education, or if having that technical 
education secures no wage advantage, fewer students will enroll in a 
training program. Sometimes, students perceive that better 
opportunities are available in a more dominant or more visible 
industry, leaving both viable jobs and the training programs that 
support them behind.
    In some cases, factors internal to the college can have a negative 
influence on enrollment in technician education programs. If the 
college is unable to identify a target student population and market 
the program effectively, enrollment may suffer. If, over time, the 
college allows its facilities and equipment to become obsolete, 
enrollment will decline. If the program faculty do not maintain their 
own technological currency, or if their teaching skills decline, 
students will not continue to participate. These issues highlight the 
critical importance of maintaining strong, industry-based advisory 
committees for each of the college's technical programs.
    Community and technical colleges employ a variety of strategies to 
attract students to technical education programs. Most work with the 
high schools in their service areas to connect related secondary career 
and technical education programs with college programs in similar 
disciplines. These connections are often made within the context of 
Tech Prep articulation agreements that give the high school student 
advanced placement credit for college-level work. Many colleges engage 
in a variety of other high school outreach programs in which college 
recruiters present programs for high school students and parents, along 
with workshops for teachers and counselors. Some colleges offer summer 
camps for middle and high school students to provide them exposure to 
technical or scientific careers. The last two colleges for which I have 
worked have held fairs to provide exposure for women to nontraditional 
careers in the trades or technical careers. In both colleges, we have 
had active referral systems in place with our regional WIA one-stop 
centers. In my experience, two factors are worthy of note. First, 
employers and their representatives usually have a higher impact on 
recruitment for training programs related to their industries than do 
college personnel. Second, community and technical colleges rarely have 
sufficient funding for effective marketing.

What challenges does inadequate math/science preparation pose to tech-
training programs? Do you know of colleges engaged in innovative ways 
of addressing this dilemma, particularly through collaborating with 
secondary schools?

    The fact that nearly half of the students entering community and 
technical colleges require at least some remediation in mathematics is 
a multi-dimensional problem for the colleges. Remedial or developmental 
education clearly diverts resources from college-level programming. 
These pre-college courses are typically funded by the states at a lower 
value per full-time equivalent student than college-level courses. This 
dilutes the funding stream and financial health of the institutions. 
The greater the length of time a student spends in remedial or 
developmental courses, the less likely she or he is to matriculate into 
and complete a college program.
    To the extent a student's remediation is incomplete or imperfect, 
the technical education curriculum is invariably diluted. As a case in 
point, I was once summoned to a pharmacology class by the department 
chair of a medical assisting program. Her colleague was engaged in a 
laborious process of teaching the students long division of decimals 
for the purpose of calculating drug dosages. As frightening as this 
revelation was, there was also an undeniable shortchanging of the 
intended pharmacological content.
    Washington State has a promising initiative to improve the ability 
of high school students to enter college-level mathematics courses 
without remediation. The Math Transitions Project is built on a 
detailed curriculum analysis and defines competency-based standards for 
college readiness in mathematics. The standards and additional 
information about the project are available at http://
www.transitionmathproject.org.

What is an industry partner's ideal role in a community college tech-
training program? Please elaborate on your experiences with industry 
partners.

    Once the determination is made that employment opportunities and 
student enrollment demand are sufficient to sustain a technical 
education program, a college and the supporting industry can begin the 
detailed work of creating a partnership. Curriculum development 
presents an early opportunity. In the past, I have worked with 
technicians, front-line supervisors, human resource professionals, 
industrial trainers, and engineers to create curriculum for educating 
computer-aided machine operators and programmers (Outboard Marine 
Corporation, Burckardt Amerida, Amp, Inc.), chemical process 
technicians (Dow Corning, Proctor & Gamble, Stockhausen, Ciba Specialty 
Chemicals), and process operators (Conoco-Phillips, BP, Shell, Tesoro.) 
In most cases, we used source documents from National Science 
Foundation-funded Centers of Advanced Technology, or from organizations 
promulgating skills standards (National Institute for Metalworking 
Skills) as a starting point. We often prioritized, selected, and 
occasionally modified these curriculum materials to fit local needs. 
When working with multiple industrial partners, the process often 
involves reaching a consensus on the content needs shared by all the 
partners and an agreement that any additional proprietary training be 
done in-house after hiring. Collaboration among the college and its 
industrial partners on curriculum design is a fundamental building 
block of a successful partnership.
    While developing a program in Chemical Process Technology at 
Guilford Technical Community College in Greensboro, North Carolina, a 
group of engineers from the participating companies identified nine 
unit operations that their future employees needed to perform. Using 
standardized connections, they designed modular units for each of these 
processes, facilitating interchangeable sequencing and simulating 
manufacturing of a variety of products. These engineers produced CAD 
files of this modular equipment and the laboratory space that the 
college planned to renovate for use by the new program. They secured 
substantial donations of pumps, valves, and other components from 
surplus inventory in their plants. They worked with their purchasing 
managers to leverage deep discounts for remaining equipment purchased 
by the college. The result was a laboratory that supported the 
curriculum and was flexible enough to meet the needs of both career-
entry trainees and the companies' incumbent work forces. Dow Corning 
provided a two-for-one matching grant to cover the hard cash costs of 
the project.
    Conoco-Phillips, BP, Shell, and Tesoro provided similar assistance 
with the development of a Process Technology program at Bellingham 
Technical College in Bellingham, Washington. Industry support for that 
program and a related one in Instrumentation and Process Control 
Technology led to the college's designation by the state as a Center of 
Excellence in Process Manufacturing.
    One of the most productive models for a partnership between 
community and technical colleges and an industry is the approach to 
service technician training developed first by General Motors and now 
shared by most automotive manufacturers. As microprocessor technology 
spread throughout a host of automotive applications, General Motors 
foresaw the need for a higher level of theoretical preparation for the 
technicians who serviced its products in the dealerships. They 
developed a program that is structured with alternating periods of 
study and practice on campus and periods of cooperative education work 
experience supervised by seasoned technicians in the workplace. The 
manufacturers have typically supported these programs with donated 
vehicles and components, technical update training for the faculty, and 
real time access to the latest technical service databases. At Guilford 
Technical Community College, both General Motors and Ford contracted 
with the college to provide update training for dealership technicians. 
The income from these training contracts was used to further augment 
the quality of the tools and technology for the career entry programs.
    In all of the colleges for which I have worked, we have had a 
strong system of advisory committees. These committees are constituted 
by members representing employers and who are close to the evolving 
skill needs of their workforce. They provide feedback on developments 
in their industries to keep the programs current. Many are involved in 
student recruitment and outreach, securing cooperative education work 
opportunities, and assisting with the placement of graduating students 
in jobs. They have often assisted in securing donations of equipment 
and sometimes funding. Many have served as guest speakers for classes 
or assisted in finding other speakers to do so.
    In some rare cases so far limited to the medical industry, I have 
received help from partners through salary supplements or relocation 
assistance for faculty in high skill, high wage career fields. At South 
Puget Sound Community College, we have a three-year contract with 
Providence St. Peter Hospital to expand our nursing program by an 
additional class cohort. We would not have been able to respond to 
their employment needs to the same extent without the contract.

What impacts do shifts in industry demand have on tech-training 
programs and how do community colleges address these?

    There are three principle types of shifts in industry demand that 
affect technical education programs. Most industries are now on a 
constant path of technology renewal in attempts to gain competitiveness 
by increasing productivity, reducing costs, speeding product 
development cycles, customization of products to customer 
specifications, or some combination of these efforts. In the face of 
this accelerating evolution in technology, colleges face increasing 
difficulty in keeping curriculum current, helping faculty keep their 
skills up-to-date, and in keeping instructional equipment and software 
parallel with industry practice. An effective advisory committee can 
keep a college apprised of the nature and extent of these requirements, 
but many colleges struggle with the costs of remaining current. The 
colleges most successful in meeting these demands are those in 
effective partnerships with industries that participate financially to 
keep technology in the training environment equivalent to that deployed 
in the production setting.
    The technological evolution has also been accompanied by a large-
scale shift by industries to embrace the quality movement, lean 
manufacturing, and other strategies for improving productivity and 
quality by empowering employees closest to the work processes to make 
decisions about them. This has fundamentally changed the goal of most 
technical education programs from producing workers outfitted with a 
specific set of skills and a narrowly defined knowledge base toward 
producing employees with a broader contextual knowledge of an industry, 
including its technology, production processes, business practices, and 
the culture of its customer base. Educated technicians are now also 
expected to be fluent in the use of a variety of information 
technologies, participate fully in team-based problem solving 
strategies, and to have a broader knowledge base that allows them to 
absorb future shifts in production processes and technologies at a 
minimum expense to the employer for re-training.
    These changes in expectations have caused colleges to seek 
mechanisms for better connecting the student learning experience across 
academic and technical disciplines. Many colleges have experimented 
with team teaching and learning communities in which intact cohorts of 
students enroll in blocks of related courses. Colleges still struggle 
to an extent to develop tools for assessing cross-functional learning. 
These types of changes have not been easy to implement within the 
architecture of college organizational structures and cultures. Most of 
the colleges have broad missions that include not only technician 
education, but academic transfer programs, remedial and developmental 
education, and continuing education that respond to a broad variety of 
interests in their communities. This breadth of mission, along with the 
momentum of academic and institutional cultures, has not created the 
conditions for many colleges to emulate the organizational structures 
or thoroughly integrate the quality and productivity tools that have 
been widely adopted by their industry partners.
    The third type of shift in industry demand is directly related to 
the expansion or contraction of labor market demand. These shifts can 
arise from industry-wide responses to fluctuation in the business 
cycle, or from the start-up, expansion, or failure of individual 
companies. Obviously, these changes have an impact on the demand for 
graduates, and they also have an impact, sometimes delayed, on student 
enrollment in related technical education programs.
    It is easier for the college to respond to expansions. In some 
cases, the college can hire an additional instructor and schedule 
classes in existing facilities during extended hours of the day. In 
others, the college can respond with highly focused classes to up-skill 
incumbent workers for promotion into more advanced positions while 
offering accelerated, customized training for entry-level workers. If 
the growth in demand is broad across industry sectors and projected to 
be sustained, the college can plan to rent or build additional 
capacity. Industries are often much more likely to enter into 
substantive partnerships with colleges in periods of strong expansion 
and short labor supply.
    Contractions are far more difficult for colleges to deal with. If 
the industry demand remains strong, but student enrollment is weak, the 
college will assess the underlying reasons and may choose to develop an 
action plan. The action plan may involve a renewed marketing effort 
and/or address fundamental issues of program quality, including the 
technical or pedagogical skills of the instructor and/or the adequacy 
of instructional equipment.
    Assuming a decline in demand for graduates or by students for 
enrollment is projected to continue, the college must face the 
difficult question of whether to continue the program. It is often the 
case that the college needs to redirect the funding that supports the 
program in question for responding to a new or different demand. Most 
often, some students are enrolled in the program and provisions must be 
made for them to graduate. Faculty contracts often specify detailed 
procedural requirements for terminating programs. If the positions of 
tenured faculty are to be eliminated, the process can be lengthy, 
contentious, and expensive. Often, a residual level of demand continues 
in the employment sector, but it is too low to sustain a college 
program. In these situations the college may face vocal opposition to 
terminating the program from industry representatives allied with the 
affected faculty. The college may need to make a sound business 
decision in an unsupportive political environment, but the resistance 
more often delays than prevents a choice that is ultimately inevitable 
in the face of inadequate enrollment.

                     Biography for Gerald Pumphrey

    Gerald Pumphrey was appointed President of South Puget Sound 
Community College in August, 2006. He was President of Bellingham 
Technical College in 2001-2006. Positions he has held at Guilford 
Technical Community College in Jamestown, NC include: Vice President of 
Instruction, 1999-2001; Dean of Instruction, 1998-1999; Director of 
Workforce Preparedness, 1996-1998; and Division Chair of 
Transportation, 1995-1997. He received a B.A. from Florida State 
University, FL; a M.A. from Appalachian State University, NC; and an 
Ed.D. from Clemson University, SC.
    His memberships include: Economic Development Council of Thurston 
County, 2006-present, Board of Directors; Rotary Club of Olympia, March 
2007-present; Thurston County Roundtable 2006-present; South Sound 
Manufacturers' Alliance, 2006-present, Executive Committee; Pacific 
Mountain Workforce Development Council, 2006-present; American 
Association of Community Colleges, Presidents' Academy Executive 
Committee; Transatlantic Training and Technology Alliance; Junior 
Achievement of Pierce and Thurston Counties, 2006-present; Board of 
Directors Downtown Renaissance Network, 2002-present; Northwest 
Workforce Development Council, 2002-present, Executive Committee; 
Center for Information Services, 2001-present; Past memberships 
include: Rotary Club of Bellingham, 2003-2005; GHG Housing Corporation, 
1998-2001; Piedmont Triad Center for Advanced Manufacturing, 2000-2001.

    Chairman Baird. That threat of the trapdoor gets them every 
time.
    Dr. Pumphrey. It does.
    Chairman Baird. Dr. Pumphrey, thank you for your remarks. I 
think you were very cogent and concise, and I appreciate it.
    Dr. Fonash, please?

 STATEMENT OF DR. STEPHEN J. FONASH, CENTER FOR NANOTECHNOLOGY 
    EDUCATION AND UTILIZATION, PENNSYLVANIA STATE UNIVERSITY

    Dr. Fonash. Thank you, Mr. Chairman and Members of the 
Subcommittee for inviting me to testify before you today. I am 
an active nanotechnology researcher, but I have also become 
involved in community college education, and my comments come 
from that kind of a perspective.
    Now, let me begin by saying that the generally accepted 
picture of manufacturing in today's work-world, and one which I 
strongly agree with, is that, as technology fields mature, 
their manufacturing components tend to migrate out of the 
United States. A good example of this is the semiconductor 
industry. The consequence of this picture is that manufacturing 
in the United States must be cutting edge and innovative. It 
must define the forefront to survive. It follows that America's 
technical workforce must be equally cutting edge and prepared 
for a lifetime of learning. It must be prepared for innovation 
and innovating.
    Much of the cutting-edge research that flows into industry 
and into U.S. manufacturing comes from research-intensive 
universities. I believe these institutions also have a role in 
bringing cutting-edge technology and the spirit of innovation 
to community college education, and thereby to America's 
technical workforce. Research-intensive universities have the 
facilities, the means to sustain these facilities and the 
resident expertise to give technology students intensive hands-
on exposure to the equipment, concepts and innovation that will 
drive tomorrow's manufacturing. A partnership of community 
colleges, industry, and research-intensive universities is a 
very powerful one which can create and sustain strong associate 
degree technology education essential to continued U.S. global 
competitiveness.
    In Pennsylvania, we have created such a partnership in the 
critical far-reaching field of nanotechnology. This is a 
partnership that we have named the Pennsylvania Nanofabrication 
Manufacturing Technology Partnership. It receives support from 
the Commonwealth of Pennsylvania and has since 1999, and in 
July 2001, it was established as a National Science Foundation 
Advance Technology Education center. With the addition of the 
resources of being designated an ATE center, the program has 
grown from a partnership of seven community colleges, Penn 
State, and industry in 2001, to a partnership, today, of the 14 
community colleges in Pennsylvania, Penn State campuses across 
the Commonwealth, the Pennsylvania State System of Higher 
Education and industry. Today graduates of the partnership's 
programs earn their two-year nanotechnology degrees from 21 
different Pennsylvania institutions. With the addition of the 
resources of the ATE center, we have also been working with 
numerous community colleges across the country that want to 
emulate our partnership and research-sharing model in their 
technology-education efforts.
    A key aspect of our partnership is what we term the 
``capstone semester.'' It is taught using the state-of-the-art 
facilities and expertise resources of Penn State's University 
Park campus. All students in the nanotechnology programs of the 
21 partners must take this total, hands-on emersion into 
nanoscale fabrication, synthesis, and characterization. This 
six-course capstone semester experience is provided by Penn 
State three times a year as a service for the two-year-degree-
granting schools engaged in the education of technicians.
    The motivation for industry to play a role in advance 
technology education is well understood. The motivation for 
research-intensive universities to play a role in technology 
education is less clear. There is a well-established innovation 
path from research universities to industry, which turns ideas 
in the laboratory into products for American industry. It is 
considered prestigious to participate in that pathway. There 
needs to be an equivalent innovation pathway from universities 
to technology education which turns new ideas in the laboratory 
into skills and learning in the technology classroom. Being a 
participant on this pathway needs to be deemed equally 
prestigious.
    If I were to distill my thoughts down to one idea, I would 
say innovation and cutting-edge technology has to move quickly 
to the community college classroom, just as quickly as it moves 
to industry, and I believe the best way to do this is to 
encourage partnership and research sharing among community 
colleges and research-intensive universities.
    Thank you.
    [The prepared statement of Dr. Fonash follows:]

                Prepared Statement of Stephen J. Fonash

Question 1: Please describe the evolution of your program--how it began 
in response to industry's stated needs and how the program has changed 
as the industry needs and focuses have changed. Please describe how the 
program adjusted after the drop-off in demand for semi-conductor 
manufacturing technicians that occurred around the year 2000. How do 
you prepare your students to be adaptable to the changing needs in 
high-tech manufacturing?

    Our program originated from calls in 1998 from Lucent, Fairchild 
Semiconductor, and Air Products for increased technical education in 
Pennsylvania in the micro- and nano-scale fabrication and 
characterization techniques used in the semiconductor industry. To 
address this need, Penn State University, Pennsylvania community 
colleges, other two-year-degree granting institutions in Pennsylvania, 
and industry worked together to create a two-year degree program 
teaching micro- and nano-scale fabrication and characterization with an 
emphasis in semiconductor applications. Today, this effort has evolved 
into the Pennsylvania Nanofabrication Manufacturing Technology (NMT) 
Partnership. Today, its programs provide a broad micro- and nano-scale 
fabrication, synthesis, and characterization educational experience 
addressing the career needs of students and the technician needs of a 
spectrum of industries. The Partnership has received support from the 
Commonwealth of Pennsylvania since 1999, and in July 2001, was 
established as a NSF Advanced Technological Education (ATE) Center. As 
an NSF ATE center, the Partnership works with numerous institutions in 
other states to aid in replicating our educational programs and 
partnership approach.
    At the inception of the Partnership, it was decided that each two-
year-degree granting institution should formulate its own 
nanofabrication education program. However, each program was required 
to include a one semester hands-on immersion in micro- and nano-scale 
fabrication and characterization which we termed the ``capstone 
semester.'' Curriculum development was done in concert with industry 
through an Industry Advisory Board which oversaw, and today continues 
to oversee, the program and course development. The key--and unique 
aspect--of the program was the development of this capstone semester. 
This capstone semester experience is provided by Penn State three times 
per year at its University Park campus (fall, spring, and summer) as a 
service for the two-year-degree granting schools engaged in the 
education of technicians and production workers.
    The ``capstone semester'' is taught at Penn State's University Park 
campus and it is only there that a critical mass of students must 
converge. This is an important consideration for three reasons: (1) 
community colleges across the country find that technology training 
programs do not attract a large number of students, (2) community 
colleges cannot afford to have, and even more importantly, cannot 
afford to maintain the expensive equipment needed, and (3) community 
colleges do not have the resident expertise required to use this 
equipment to teach micro- and nano-scale manufacturing technology. With 
the approach taken in the NMT Partnership, each ``home school'' 
contributes students to the capstone semester at University Park and 
the individual home schools need not have a critical mass in order to 
offer this training. They do not have to create whole new curricula for 
students but only have to modify course content to prepare students for 
the capstone experience. With the approach taken, Penn State's broad 
facilities and the resident expertise were from the start, and are now, 
used to teach the defining, hands-on capstone semester exposure to 
advanced micro- and nano-scale fabrication and characterization. The 
approach was, and continues today to be, that the two-year degree 
granting institutions use the capstone semester courses in their 
programs as they see fit. These six courses are ``on their books'' as 
their courses and each home school's students pay their institution's 
tuition even while taking the capstone semester. The State of 
Pennsylvania enables this by paying the difference between the home 
school's tuition and the actual cost of the capstone semester 
experience.
    With the drop-off in demand for semiconductor manufacturing 
technicians which occurred in the 2000-2001 time period and with the 
increasing hiring of the NMT Partnership students by chemical, 
information storage, and pharmaceutical companies, it became apparent 
that micro- and nano-scale fabrication and characterization training 
should not be focused only on semiconductor manufacturing but that 
there was a ubiquitous need. The dramatically changed fortunes of the 
semiconductor industry at that time also taught the Partnership that 
students must be prepared for a lifetime of changes and shifts. As a 
consequence, the capstone semester courses were refocused to provide 
even more general training in micro- and nano-scale fabrication, 
synthesis, and characterization. The community colleges of the 
Partnership responded by modifying additional curricula and thereby 
inserting the capstone semester into degree programs in fields such as 
chemistry, manufacturing, and life sciences. The on-set of these 
changes and their continuing evolution may be seen in Fig. 1. With this 
broadening of the Partnership, micro- and nano-scale fabrication, 
synthesis, and characterization education areas, companies such as Rohm 
and Haas, Merck, Johnson & Johnson, PPG, and Lockheed Martin joined the 
Industry Advisory Board. The current composition of that Board is seen 
in Table I. The broad spectrum of Pennsylvania companies that have 
hired NMT Partnership graduates is presented in Table II.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Being designated as an NSF ATE center has been absolutely critical 
to our being able to broaden our educational impact and to our success. 
It has enabled the program to go from a Partnership of seven community 
colleges and Penn State in 2001 to a Partnership of all 14 PA community 
colleges plus Penn State campuses and the Pennsylvania State System of 
Higher Education. Today the Partnership's mission can be summarized as 
the following: to educate a workforce that is skilled in micro- and 
nano-scale manufacturing concepts in which can be transferred from 
industry to industry as the economic winds wax and wane. In short, we 
want to provide students with an excellent, broad education and the 
ability to take advantage of career opportunities as they may occur 
across a wide spectrum of industries. We want to make industry cutting 
edge and competitive and to give it a cutting edge and competitive 
workforce that can adjust to rapid change. We also want to provide two-
year degree students with clearly defined pathways to a variety of four 
year degree opportunities. With that latter objective in mind, the 
four-year degree State System of Higher Education schools have been 
added to the Partnership. Working with the two-year degree 
institutions, these schools have created pathways whereby two-year 
degree graduates can use the capstone semester credits to build four 
year degrees in chemistry with a concentration in nanotechnology, in 
biology with a concentration in nanotechnology, in physics with a 
concentration in nanotechnology, and in engineering technology with a 
concentration in nanotechnology.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Question 2: What demographic profile does your program draw? How have 
you faced the challenge of recruiting more students to your program?

    The demographic profile of the students at NMT Partnership schools 
is that of the 21 community colleges and other two-year-degree granting 
institutions in the Partnership from across Pennsylvania. Figure 2 
gives the female and minority compositions of the students who take the 
capstone semester. The representations for females and minorities is 
close to that seen across the country for engineering. The Partnership 
has embarked on using three day Nanotech Camps, held in the summer at 
University Park for high school students, as a recruitment tool and a 
means to increase female and minority interest in nanotechnology-based 
manufacturing. Last summer a total of 206 high school students attended 
these Nanotech Camps at Penn State. Of these students, 50 percent were 
under-represented minorities and 56 percent were female. This summer, 
it is anticipated that 50 percent of the attendees will be female. 
Further, of the 10 Nanotech Camps scheduled, four will be exclusively 
for under-represented minorities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Community colleges find that recruiting students for technology 
programs is difficult whether addressing minority, female, or general 
populations. At least some of the reasons for this problem lie in (1) 
parental desire for students to attend a four-year degree school, (2) a 
perceived lack of clear paths to four-year degrees for students 
attending two-year degree schools, (3) a nation-wide aversion to 
science and technology, and (4) lack of aggressive marketing by the 
community colleges. In the NMT Partnership, the various schools recruit 
their students. Partnership participation arms them with distinct, 
advantageous points to convey to prospective students and their 
parents. These include: (1) students will have a hands-on opportunity 
to work with the latest equipment and learn the very latest technology 
from practitioners, (2) students will spend one semester in the 
environment of a research university, (3) students will get more hands-
on experience than four-year engineering students, (4) pathways are in 
place for two-year students to continue to four-year degree programs 
with nanotechnology concentrations, and (5) two-year degree NMT 
graduates of Partnership schools have been receiving salaries in the 
$30,000 to $50,000 per year range. Even with these ``sales-points,'' 
the marketing of the unique micro-and nanotechnology education 
opportunities provided in Pennsylvania to counselors, teachers, 
parents, and students has been hampered by (4) above; i.e., lack of 
aggressive marketing by the community colleges.
    The Partnership has prepared materials and tools to assist in 
marketing efforts. Included are nanotechnology product bags showing 
some of the latest nanotechnology-based consumer products, web access 
to nanotechnology tools for remote operation, a movie on a day in the 
life of a student who is taking the capstone experience, testimonials 
from industry, testimonials from graduates, and a public service 
announcement from the PA Governor. Many of these may be seen on the 
Partnership web site www.cneu.psu.edu. In addition the Partnership 
holds nanotechnology workshops for middle school and high school 
teachers to work to create a cadre of teachers who understand the far 
reaching impact of this technology. To date over 500 teachers have 
taken these workshops. However, all these efforts are only useful when 
coupled with a strong marketing effort. Community college faculty do 
not seem to have the time to do the needed recruiting, community 
colleges do not seem to have adequate marketing capabilities, and 
administrators worry support for nanotechnology education programs such 
as the PA NMT partnership will evaporate.

Question 3: How do you determine your math/science curriculum? What 
steps do your partner community college institutions take to ensure 
students can meet the demands of your program?

    With the added resources available since becoming an NSF ATE 
center, our Partnership has grown to 21 institutions offering 33 
nanotechnology two-year degrees across Pennsylvania. Each school uses 
the capstone semester as an integral part of its two-year degree 
programs which are based on micro- and nano-scale fabrication, 
synthesis, and characterization. Each institution has tailored these 
degrees to meet the industry focus in its area. For example, the two-
year degree programs in the Pittsburgh area tend to be materials 
processing oriented. Those in the Philadelphia area tend to be 
chemistry and biotechnology oriented. The two-year degrees offered by 
Partners run the gambit from nano-manufacturing to nano-biotechnology.
    With this number of institutions and this variety of degree types 
feeding into the capstone semester hands-on experience, it is not 
feasible to even attempt to standardize the math/science courses and 
curriculum base for the Partnership. To try to do so would take years 
since each institution has its own course and curriculum committees and 
procedures. Rather than attempting this approach, we chose to 
standardize the skill set that must be provided by each math/science 
curriculum feeding into the capstone semester. Each institution must 
certify that this required skill set is met by each student it sends to 
the capstone semester. The capstone semester then builds on this entry 
skill set. Students emerge from the capstone semester with the 
technician skill set established by the Industry Advisory Board. This 
is shown in Table 3.

                               Table III

             Skill Set Acquired from the Capstone Semester

Micro- and Nanotechnology Foundation Skills

        <bullet>  Basics of Chemical and Material Properties

        <bullet>  Chemical and Materials Handling

        <bullet>  Health, Safety, and Environmental Concerns

        <bullet>  Cleanroom Use, Design, and Maintenance

        <bullet>  Pumps, Flow Control Systems, Scrubbers, Sensors: Use 
        and Maintenance

        <bullet>  Vacuum Systems: Use and Maintenance

        <bullet>  Plasma Generating Systems: Use and Maintenance

        <bullet>  Furnaces: Use and Maintenance

        <bullet>  Chemical Reaction Systems: Use and Maintenance

        <bullet>  Contamination Control

        <bullet>  Process Integration

        <bullet>  Introduction to Statistical Process Control

        <bullet>  Biocompatibility

Micro- and Nanotechnology Synthesis and Fabrication Skills

        <bullet>  Bottom-up

                <bullet>  Pattern Generation

                <bullet>  Chemical, Physical, and Biological Self-
                Assembly

                <bullet>  Nanoparticles: Colloidal Chemistry

                <bullet>  Nanoparticles: Plasma and Grinding/Milling 
                Approaches

                <bullet>  Nanoparticles: Chemical Vapor Deposition

        <bullet>  Top-down

                <bullet>  Optical, E-beam, Stamping, and Imprinting 
                Lithography

                <bullet>  Etching and Deposition

                <bullet>  Chemical Vapor and Physical Vapor Deposition

                <bullet>  Materials Modification

        <bullet>  Hybrid

Micro- and Nanotechnology Characterization Skills

        <bullet>  Optical Microscopy

        <bullet>  Scanning Probe Microscopy

                <bullet>  Atomic Force Microscopy

        <bullet>  Electron Microscopy

                <bullet>  Scanning Electron Microscopy (SEM and Field 
                Emission SEM)

                <bullet>  Transmission Electron Microscopy (TEM and 
                Field Emission TEM)

        <bullet>  Chemical Characterization

                <bullet>  X-ray (Energy Dispersive Spectroscopy)

                <bullet>  Secondary Ion Mass Spectroscopy

                <bullet>  Auger Electron Spectroscopy

                <bullet>  Fourier Transform Infrared Spectroscopy

        <bullet>  Electrical Characterization

                <bullet>  Current-Voltage Measurements

                <bullet>  Capacitance Measurements

                <bullet>  Opto-electronic Device Measurements

        <bullet>  Physical Characterization

                <bullet>  Spectrophotometer

                <bullet>  Profilometer

                <bullet>  X-ray Diffraction

Micro- and Nanotechnology Professional skills

        <bullet>  Team Building

        <bullet>  Problem Solving

        <bullet>  Project Organization and Planning

        <bullet>  Research Skills

        <bullet>  Assessing Cost of Ownership

        <bullet>  Presentation Skills

        <bullet>  Technical Reporting and Documentation

        <bullet>  Intellectual Property

Question 4: What is the ideal role for industry partners in developing 
and running a successful tech-training program? Please elaborate on 
industry's role in creating skill standards, developing curriculum, 
providing student development opportunities, defraying the cost of 
equipment, and hiring graduates.

    For a meaningful advanced manufacturing and technology education 
program, industry must be involved from the inception. This was the 
situation for our Partnership--in 1998 companies such as Lucent, 
Fairchild, and Air Products went to the Pennsylvania government with 
Penn State representatives to argue for the semiconductor oriented 
micro- and nanofabrication education effort. This evolved into the 33 
very broad micro- and nano-scale manufacturing technology two-year 
degree programs of today's NSF ATE center. From the very beginnings 
these companies, and the 26 additional companies that have joined them 
over the ensuing nine years, have constituted our program's Industry 
Advisory Board. We have worked to keep this group small enough to be 
active and interactive and yet broad enough to encompass 
representatives from all the various Pennsylvania industries now 
impacted by nanotechnology from pharmaceuticals to the alternative-
energy companies and from information storage to measurement tools 
companies. Our current Industry Advisory Board (Table I) last met this 
past May 2007 in its Partnership guidance role.
    An Industry Advisory Board plays an extremely crucial role in 
advanced manufacturing and technology education for the very basic 
reason that it tells you if what you are doing is meaningful, or not, 
to companies. One must temper its advice, however, with the 
understanding that in some cases an industry view can be a very ``this 
quarter'' perspective--after all, in the beginnings of our program, 
before the collapse of much of the semiconductor manufacturing in this 
country, we were being told to emphasize the semiconductor industry 
aspect of micro- and nano-scale manufacturing. Nonetheless, the 
Industry Advisory Board and its input to courses and curriculum has 
been the principal force in shaping our program. Every year the Board 
reviews the skill set responsibilities of the community colleges, the 
course content of the capstone semester courses taught for the 
community college by Penn State, and the skill set to be developed in 
the capstone semester experience. The current capstone semester skill 
set that comes out of this industry input, just modified as a result of 
the May 2007 Board meeting, is seen in Table III.
    The innovation and vision of research intensive universities is 
sought after by industry to aid in keeping their products on the 
cutting edge and competitive internationally. That same innovation and 
vision of research intensive universities is also needed to aid in 
keeping community colleges on the cutting edge of skilled technician 
and production worker education. The ``this quarter'' perspective that 
industry can sometimes bring in its assessment of workforce skill needs 
can be tempered by the ``next decade'' perspective of products and 
manufacturing that a research intensive university can bring. This 
perspective is critical to the students' well being and to the 
country's long term economic health. Students must be educated with an 
understanding of basic fabrication, synthesis, and characterization and 
imbued with the basic desire to continue to want to learn. It is only 
this approach that will allow the workforce--and ultimately the 
country--to adapt to the changing needs, which surely will come, in 
high-tech manufacturing.
    A proposed list of the ideal roles industry can play in advanced 
technical education programs such as micro- and nano-scale fabrication, 
synthesis, and characterization is the following:

        (1)  Delineate the skills needed for workers and evolve these 
        as the industries react to competition and market forces

        (2)  Monitor courses and curricula to insure these skills are 
        taught

        (3)  Assist with student recruitment

        (4)  Provide student development opportunities such as 
        internships

        (5)  Assist with equipment costs

        (6)  Hire graduates

    Research intensive universities should have an equally important 
role in advanced technical education programs such as micro- and nano-
scale fabrication, synthesis, and characterization. A proposed list of 
the ideal roles research intensive universities can play is the 
following:

        (1)  Balance the near-term perspective of industry with the 
        longer-term perspective of a research university

        (2)  Provide the facilities and resident expertise as a service 
        to allow community colleges to offer hands-on experiences in a 
        broad variety of micro- and nano-scale manufacturing processes

        (3)  Provide the facilities and resident expertise to offer 
        ``teaching-the-teachers'' education for keeping community 
        college faculty current in manufacturing technology

        (4)  Assist community colleges with the development of student 
        recruitment materials (e.g., provide brochures, web access to 
        equipment, web available informational materials)

    The motivation for industry to play these proposed roles in 
advanced technology education is well understood. The motivation for 
research intensive universities to play the roles proposed for them for 
advanced technology education is less clear. There is a well 
established innovation path from research universities to industry 
which turns new ideas in the laboratory into products. It is considered 
prestigious to participate in this pathway. There needs to be an 
equivalent innovation path from universities to technology education 
which turns new ideas in the laboratory into skills and learning in the 
technology classroom. Being a participant on this pathway needs to be 
deemed equally prestigious. Innovation has to move to industry rapidly 
to keep it competitive. Innovation has to move to the technology 
classroom equally rapidly to keep the country's workforce competitive 
and to provide a lifetime of opportunities for technical workers. 
Perhaps something like a Morrill Act for the 21st century is needed to 
insure that innovation and cutting edge developments are moved quickly 
into the teaching of the ``branches of learning as are related to. . 
.(the) mechanic arts.''

                    Biography for Stephen J. Fonash

    Dr. Stephen Fonash holds the Bayard D. Kunkle Chair in Engineering 
Sciences, at the Pennsylvania State University. He is also the Chairman 
and Chief Technology Officer of NanoHorizons, a nanoscale-materials 
engineering company. Dr. Fonash's activities at Penn State include 
serving as the Director of Penn State's Center for Nanotechnology 
Education and Utilization (CNEU) and as the Director of the National 
Science Foundation Advanced Technology Education Center.
    Prof. Fonash's education contributions focus on nanotechnology 
workforce development and on nanotechnology secondary and post-
secondary education. His research activities encompass the processing 
and device physics of micro- and nanostructures including solar cells, 
sensors, and transistors. Current research activities include studies 
of the effects of nanoparticle plasmon-related enhancement of optical 
characterization techniques, electrical sensing based on nanowires, and 
nanowire transistors. He has published over 300 refereed papers in the 
areas of education, nanotechnology, photovoltaics, microelectronics 
devices and processing, sensors, and TFTs. His book ``Solar Cell Device 
Physics'' has been termed the ``bible of solar cell physics'' and his 
solar cell computer modeling code AMPS is used by over 600 groups 
around the world. Dr. Fonash holds 23 patents in his research areas, 
many of which are licensed to industry. He has founded two companies, 
serves on the boards of several companies and journals, and is also a 
consultant to a variety of firms. Prof. Fonash received his Ph.D. from 
the University of Pennsylvania. He is a Fellow of the Institute of 
Electrical and Electronics Engineers and of the Electrochemical 
Society.

    Chairman Baird. Thank you very much, Dr. Fonash.
    Mr. Mittelstadt, please.

 STATEMENT OF MR. ERIC MITTELSTADT, CEO, NATIONAL COUNCIL FOR 
                     ADVANCE MANUFACTURING

    Mr. Mittelstadt. Thank you, Chairman Baird and Ranking 
Member Ehlers, and Members of the Subcommittee. I very much 
appreciate and am honored to testify today on what NACFAM 
believes is a critical issue in the 21st century, and that is 
the need for a more highly skilled and lifelong-learning 
workforce. I commend you for this hearing, and I hope that I 
can add to our collective understanding of the issues and what 
community colleges and industries are doing to meet the demand.
    Let me briefly set the stage for why higher skill levels 
are required of production workers and technicians now and in 
the future and why innovative and collaborative approaches to 
training them are essential. Manufacturing has led the U.S. 
economy in productivity gains in recent years, but that 
productivity must continue to increase for a number of reasons: 
these include demographics, increasing customer demands, the 
hypercompetitive global economy, inevitable fluctuations in our 
economy, and finally because we have fewer people than China 
and India have, for example, we have got to remain more 
productive and innovative if we are going to remain a world 
power.
    To achieve the dramatic increases in manufacturing 
productivity of the past 20 years or so has required increasing 
use of the technologies of automation, information technology, 
statistical quality control, and on and on. To utilize these 
effectively, production workers continuously need more skills. 
This added sophistication of production jobs is magnified by 
the coming dramatic reduction in the size of the U.S. workforce 
as millions more baby-boomers retire in the next decade than 
the number of new, young workers entering our workforce. 
Obviously, this demographic fact of life affects all sectors, 
from stockbrokers to teachers, from retail salespeople to 
healthcare workers, and it certainly affects manufacturing. 
Thus, the current and near-future outlook for graduates of 
technical training programs is excellent, even as the reality 
of increasing productivity continues to reduce the number of 
traditional manufacturing jobs, similar to agriculture in the 
previous century.
    Data from a number of industries show shortages already of 
qualified workers, and this will only get worse as the 
demographics play out. Faced with this reality, many companies, 
their associations and educational institutions are all taking 
multiple and collaborative approaches to attract more students 
to these careers. In addition, companies must pay higher wages 
and benefits to those positions. They have got to increase 
their training efforts. They need to utilize objective-skill 
standards and certifications. Companies are also realizing that 
they cannot solve this problem by themselves. They are 
partnering with community colleges to guide tech-prep programs 
to address the required skilled upgrades and working through 
their associations to attract more students to those skilled 
careers. For example, the Business Champions Program of the 
Manufacturing Institute Center for Workforce Success encourages 
manufacturing executives ``to engage the business community, 
elected officials, foundation leaders and State policy-makers 
about the importance of community colleges in developing a 
skilled workforce.'' Further, their ``Dream It Do It'' program 
works to raise the perception of manufacturing careers among 
current and potential students.
    The necessary skills for even production workers now 
includes STEM education to enable them to most effectively use 
the advanced equipment and techniques so essential to U.S. 
manufacturing competitiveness. STEM skills are, for example, 
included in the advance-manufacturing competency model 
sponsored by the Department of Labor, in whose development, we 
at NACFAM and other industry associations participated. STEM 
skills are also included in the manufacturing-skills standards 
council work of NACFAM with the American Federation of Laborers 
Working for America Institute.
    In conclusion, today there is great progress being made, 
but the challenges are even greater. The required 21st century 
workforce skills are not only important to every individual 
worker, they are increasingly becoming essential for continued 
American innovation, and therefore, prosperity. Moreover, as 
daunting as these workforce challenges are, they are only one 
of many facing U.S. manufacturers. In the new paradigm of 
network-centric manufacturing, a new level of what we call 
intense collaboration is required among OEMs and suppliers, but 
also with labor education and government. The future 
competitiveness of our nation depends on the success on the 
intense collaboration, including as it applies to the critical 
issues being discussed here today.
    NACFAM is looking forward to working with you to make it 
all happen. Thank you very much.
    [The prepared statement of Mr. Mittelstadt follows:]

                 Prepared Statement of Eric Mittelstadt

    A key issue facing our great nation in the 21st century is the need 
for a more highly trained work force to maintain the U.S. position as a 
world power. NACFAM commends the Subcommittee for this hearing, and 
hopes it can add to the collective understanding of the issues and what 
community colleges and industry are doing to meet the demand.
    While today's focus is on production workers and technicians, many 
of the points herein apply to most sectors of the U.S. economy. It is 
helpful to set the stage for why higher skill levels are required of 
these workers now and even more so in the future, and why innovative 
and collaborative approaches to training for them are essential.
    Manufacturing has led the U.S. economy in productivity gains in 
recent years. Overall the concerns of the 80's and into the 90's that 
Japan would surpass our productivity have been put to rest. Today 
however, there are new challenges from China and India especially, and 
in the remainder of this new century others will arise as other nations 
in Southeast Asia, Latin America, Africa and even the Middle East, seek 
to improve their economies and the standard of life of their citizens. 
Therefore, manufacturing productivity must continue to increase for a 
number of reasons:

        <bullet>  Demographics--tens of millions fewer workers (input) 
        by 2018, but a growing population and increasing demand 
        (output).

        <bullet>  Consumer pressures for higher quality, content and 
        customization at ever lower prices.

        <bullet>  An increasingly ``hyper-competitive'' global economy 
        as more and more nations seek to improve their economies to 
        become more like America.

        <bullet>  The inevitable fluctuations in the economy--when 
        times are tough, companies must squeeze every penny they can 
        out of costs just to survive.

        <bullet>  And finally, because the U.S. has fewer people than 
        China and India for example, we must be more productive, and 
        innovative, for the America to remain a world power.

    This need for increased productivity generates some inescapable 
trends:

        <bullet>  The need for increased productivity means producing 
        more (output) with fewer workers (input).

        <bullet>  Thus, there will be an inevitable reduction in the 
        number of traditional manufacturing jobs.

                <bullet>  Similar to agriculture in the previous 
                century, but hopefully not as severe, and also 
                necessary because of the shrinking workforce.

        <bullet>  The experience lost by the retirement of the ``baby-
        boomers'' along with the increasing use of technology on the 
        factory floor requires well-trained workers and lifelong 
        learning to keep those skills current.

                <bullet>  Another way of looking at this is that the 
                experience of the retirees will be replaced by the 
                increased skills of younger workers because the latter 
                can't possibly enter the workforce with the experience 
                of those retiring from it.

        <bullet>  All of this requires innovation in both product and 
        process development & deployment, and also in labor-market 
        policies by businesses as well as in the education and training 
        practices of the institutions preparing workers for the future.

    Achieving the dramatic increases in manufacturing productivity over 
the past 20 years or so has required increasing use of the technologies 
of automation, information technology, statistical quality control, 
lean, just-in-time delivery, etc. To utilize these technologies 
effectively means manufacturing production jobs require more skills, 
including STEM capabilities even on the factory floor. This added 
sophistication of production jobs is magnified by the coming dramatic 
reduction in the size of the U.S. workforce because the ``baby-
boomers'' retiring over the next decade will be millions more than the 
number of new young workers entering the workforce.
    Obviously this demographic fact of life affects all sectors--from 
stock brokers to teachers, from retail sales people to health care 
workers, and certainly includes manufacturing. Thus the current and 
near-future outlook for graduates of technical training programs is 
excellent even as the reality of increasing productivity continues to 
reduce the number of traditional manufacturing jobs just as happened in 
agriculture the previous century. Data from a number of industries 
already show shortages of technicians with the necessary 
qualifications. For example, the National Association of Manufacturers 
(NAM) 2005 Skills Gap survey said that ``over 80 percent of respondents 
stated they face, right now, shortages of qualified employees including 
skilled production employees, scientists and engineers.'' This will 
only get worse as the demographics play out.
    Faced with the current and growing shortage of qualified 
technicians, many companies, their associations, and educational 
institutions are all taking multiple and collaborative steps to attract 
more students to careers as ``skilled technicians'' required for both 
engineering and production work in the 21st century. For example, 
successful companies must pay higher wages and benefits for many of 
these positions to attract the scarce talent they need to effectively 
utilize their production technologies and to continue to increase their 
productivity and competitiveness. They are also increasing their 
training efforts, utilizing skill standards and certifications to 
assure that the people they hire and train have the necessary skills, 
and improving their retention practices. All of this leads to more 
students seeing the advantages of ``skilled technician'' careers with 
companies that care about them as skilled individuals.
    Perhaps most importantly, companies are realizing that they cannot 
solve this problem by themselves or just by complaining to educational 
and training entities. They are increasingly partnering with community 
colleges to guide their tech-prep programs to address the required 
skill upgrades, and working through their associations to attract more 
students to careers as skilled technicians and skilled production 
workers.
    One significant example of this is the Dream It Do It program of 
the NAM Manufacturing Institute's Center for Work Force Success. This 
program aims at raising the perception of manufacturing careers among 
current and potential students. It is a regional approach to 
``Manufacturing Careers Campaign(s). . .providing youth-oriented 
awareness and education initiatives designed to captivate and prepare 
the next generation of skilled American manufacturing talent.''
    Another example is their Business Champions program to encourage 
manufacturing executives ``to engage the business community, elected 
officials, foundation leaders and State policy-makers to learn more 
about community colleges including their strengths and challenges in 
developing a skilled workforce.'' With ``45 percent of all 
undergraduate students enrolled in community colleges,'' this program 
recognizes the necessity for business to partner with those 
institutions to advise them on what is required to prepare students for 
the more demanding jobs of the future.
    The necessary skills needed by even production workers today 
include the knowledge derived from STEM education. With this knowledge 
they can more effectively use the automation, IT, and advanced 
production techniques so essential to U.S. manufacturing 
competitiveness. This can be seen in the Advanced Manufacturing 
Competency Model developed by the Department of Labor (DOL) with help 
from NACFAM, the National Association of Manufacturers (NAM), the 
National Institute for Metalworking Standards (NIMS), the Society of 
Manufacturing Engineers, et al. The foundation for the Competency Model 
is derived from research done by the Manufacturing Skill Standards 
Council (MSSC) as part of a project co-managed by NACFAM and the 
American Federation of Labor's Working for America Institute. Key 
elements of the Model include STEM skills, collaboration, problem 
identification, communication, team and various other skills 
requirements for production workers and first line supervisors in the 
MSSC and other skill standards mentioned above.
    Expanding on the latter two examples, and adding others:

        <bullet>  Advanced Manufacturing Competency Model (DOL)

                <bullet>  Led by industry and government

                <bullet>  Tied to existing manufacturing standards, 
                including: AWS (welding), NIMS (metalworking), MSSC, 
                etc.

                <bullet>  Used to describe needed competencies and as 
                one basis for DOL grants

        <bullet>  Manufacturing Skill Standards Council (MSSC)

                <bullet>  Led by industry and labor, with input from 
                education and government

                <bullet>  Focused on production workers and first-line 
                supervisors

                <bullet>  Covers all manufacturing industries

                <bullet>  Validated standards, assessments, 
                certification process

                <bullet>  Uses textbook and curriculum to prepare 
                workers for testing

        <bullet>  Career Cluster Initiative (Department of Education--
        DOE)

                <bullet>  Led by industry, education and government 
                including the states

                <bullet>  Aimed at providing career paths for all 
                sectors and curriculum for them

                <bullet>  NACFAM leads the Advanced Manufacturing 
                effort in this initiative

        <bullet>  STEM Talent Development Regional Conferences

                <bullet>  Led by MEP centers so far, with NACFAM 
                assistance and national perspective

                <bullet>  With industry, labor, education, government 
                in a regional economic area

                <bullet>  For example, Philadelphia regional conference

                        <bullet>  170 attendees paid fees to attend

                        <bullet>  Determined what needed to be done by 
                        whom and with whom at regional, State and 
                        national levels

                        <bullet>  Within two weeks of the event set up 
                        a ``Regional Compact'' to drive action in 
                        detail

                        <bullet>  Conducted the project without 
                        taxpayer money!

    These examples only scratch the surface, but they show there is 
great progress being made. Nevertheless, the challenges are even 
greater.
    As daunting as the workforce issues are, they are only one of many 
challenges facing U.S. manufacturers. Based on NACFAM's research with a 
number of companies in various industries, the biggest trend in the 
future shape of manufacturing is toward ``network-centric 
manufacturing''; that is, OEMs are increasingly becoming assemblers or 
integrators. They purchase systems, subsystems and components not only 
manufactured, but increasingly also engineered, developed, and often 
invented by their supply chain; i.e., by the ``network.''
    This requires significantly more capability throughout the supply 
chain, including over 300,000 smaller manufacturers (SMMs). These SMMs 
face the same challenges as the OEMs, but without the resources of big 
companies to cope with them. This puts significant strain on the 
smaller companies and on the infrastructure supporting them. It is 
especially critical in Defense procurement because the large defense 
OEMs are in many cases dependent on SMMs for mission critical 
components and/or systems.
    This new paradigm requires ``intense collaboration'' among people 
and among organizations including not only OEMs and their suppliers 
(often smaller SMMs), but also in many cases with education and 
government entities. It also requires better ``connectivity'' for the 
exchange of data and information to improve real time performance for 
global competitiveness.
    Concerning the infrastructure, these increasing requirements for 
especially SMMs demand more efficient and effective alignment of 
Federal Government programs with the real needs of those extended 
enterprises; i.e., the ``networks''. Also required is more alignment of 
programs across federal agencies, not only for economic efficiency, but 
also because SMMs simply do not have the resources to sort out which 
programs will help solve their problems. Thus, another requirement is 
easier access to the multiplicity of government programs so they can do 
the job they were intended to do for SMMs.
    Advanced manufacturing ``intense collaboration'' means OEMs and 
their suppliers, often SMMs, must work together among themselves, and 
with government, labor, educators, and others in the community to 
address problems industry cannot handle on its own. Chief among such 
problems is the issue of increasing skill levels in American 
manufacturing workers, the subject of this hearing. NACFAM's role is 
often to broker the required ``intense collaboration'' among the 
different sectors of industry, labor, education and government because 
it has members in most of these sectors.
    Business implications of ``network-centric manufacturing'':

        <bullet>  For OEMs and SMMs, competitiveness comes from:

                <bullet>  Innovation--new technologies, products, 
                processes

                <bullet>  Faster times to market with the resulting 
                products

                <bullet>  The help of the entire network, including 
                skilled employees, educators and government at all 
                levels

        <bullet>  This requires robust capabilities at all 
        manufacturing tiers in:

                <bullet>  Innovative product and process design and 
                development

                <bullet>  Supply chain collaboration and connectivity

                <bullet>  Increasingly in corporate citizenship, 
                including sustainability, green manufacturing, etc.

                <bullet>  Creative labor-market policies for the above 
                needs

    Worker implications of ``network-centric manufacturing'':

        <bullet>  Because of the demands on businesses, workers of the 
        future at all levels must be enabled to work in a more 
        ``network-centric'' way with:

                <bullet>  More skills in science, technology, 
                engineering & math (STEM)

                <bullet>  Collaboration skills for teamwork, inside and 
                outside of their companies

                <bullet>  Creativity, analytic and problem solving 
                skills for greater innovation in product and process

                <bullet>  Continuous updating of all these skills to 
                be:

                        <bullet>  The best they can be for their 
                        current positions and employers

                        <bullet>  Easily mobile to other jobs in new 
                        industries

    To respond to these needs educators must:

        <bullet>  Collaborate with industry to understand its needs, 
        both current and future

        <bullet>  Collaborate with government to innovatively optimize 
        the return on public dollars they spend

    Government implications:

        <bullet>  In today's constrained budget environment, focus must 
        be not only on funding levels (input), but more importantly 
        return on public dollars (output), e.g., for:

                <bullet>  R&D--new industries and jobs from new 
                technologies, products and processes we cannot imagine 
                today, just as in past decades we could not imagine 
                much of what we take for granted today

                <bullet>  Workforce investment, including economies of 
                use with regional & economic development activities

        <bullet>  Government at best will take time to achieve its 
        strategy for U.S. manufacturing; at worst it will not get much 
        done

    What progressive companies must do:

        <bullet>  Manufacturers must hedge by doing all they can for 
        themselves and their employees, including more creatively:

                --  Recruiting new workers, both entering and displaced

                --  Retaining existing workers through empowerment to 
                accomplish meaningful goals, competitive compensation 
                policies, and trust that they truly want to contribute

                --  Training incumbent workers to continuously upgrade 
                their skills as well as experience

                --  Utilizing employees past their traditional 
                retirement age

                --  Leveraging foreign labor without losing U.S. 
                competitiveness

                        --  Companies that succeed in all of this will 
                        prosper

    All of this suggests that metrics for strengthening U.S. 
manufacturing should be:

        <bullet>  Not just how many manufacturing jobs there are, 
        although this is obviously:

                <bullet>  Critical to the people involved, but it 
                measures only input

                <bullet>  Especially with a shrinking workforce, output 
                is also essential

        <bullet>  Similarly, percent of GDP is misleading; for example:

                <bullet>  New components of GDP (telecom, homeland 
                security, disaster reconstruction, etc.)

                <bullet>  Mean lower percent of GDP for manufacturing 
                even if absolute manufacturing output grows, as it has.

        <bullet>  More important is the manufacturing output increase 
        from:

                <bullet>  Unimaginable new industries with new jobs as 
                a result of R&D, both public and private

                <bullet>  Automation, Lean, 6-Sigma, Just-in-Time, etc.

    Because we all want to help the American worker, government needs 
to creatively:

        <bullet>  Encourage and enable workers to continuously learn 
        to:

                <bullet>  Prepare themselves to be the best they can be 
                today, and

                <bullet>  Be ready for new jobs not now imagined

        <bullet>  Not just try to preserve old jobs, but rather:

                <bullet>  Devise innovative ways to minimize 
                unemployment

        <bullet>  Creatively mitigate inevitable short-term 
        displacements in a growing economy; e.g., worker retraining, 
        health care assistance, transferable pensions, etc.

        <bullet>  Make its policies and programs for manufacturing the 
        most competitive and accessible, vis-a-vis other countries

    Key points to leave with you today:

        <bullet>  Leadership is essential in today's ``flat world''

        <bullet>  Importance of output rather than only input

                <bullet>  In everything we do, whether for our company 
                or our country

        <bullet>  Trend to ``network-centric manufacturing'' demands:

                <bullet>  ``Intense collaboration'' and connectivity 
                among business, labor, education and government

                <bullet>  Innovation especially in labor-market 
                policies such as:

                        <bullet>  Greater recognition of the 
                        criticality of skilled production workers and 
                        technicians to American economic prosperity

                        <bullet>  More recognition of and support for 
                        the important role of community colleges in 
                        educating those workers and technicians

                        <bullet>  Encouragement and support for 
                        lifelong learning to both workers and employers

                        <bullet>  Policies for health care, pensions, 
                        etc., that recognize the realities of the 21st 
                        century concerning multiple jobs and employers 
                        over the span of almost everybody's working 
                        lifetime

                     Biography for Eric Mittelstadt

    Eric Mittelstadt since January 2005 is the Chief Executive Officer 
of the National Council for Advanced Manufacturing (NACFAM), a leading 
industry think-tank based in Washington, DC, focused on advancing 
policies to help make U.S.-based manufacturers more productive and 
globally competitive.
    Mr. Mittelstadt is also chairman emeritus of FANUC Robotics 
America, the leading robotics company in the USA since 1984, and named 
one of ``Michigan's 11 best companies to work for'' in 1999. He headed 
that organization from it's startup as a joint venture between General 
Motors Corporation and FANUC LTD of Japan in 1982, first as President 
and Chief Executive Officer through August, 1997, and then as Chairman 
and CEO through December 1998, leading it to $370 million in revenue. 
Before that, his GM positions included Managing Director in Uruguay, 
Product Planning Director in both Germany and Chevrolet, and 
engineering and management positions at GM engineering staff.
    Separately, Mr. Mittelstadt heads his own firm, Mittelstadt 
Associates, Inc., specializing in top management strategy and 
implementation consulting, especially concerning customer and employee 
satisfaction, team building and financial performance. He is a past 
member of the board of Ellison Technologies, Inc., a leading machine 
tool distributor and, through its Automated Concepts, Inc. subsidiary, 
a long time successful integrator of robotic systems for various 
industries.
    Born in Detroit, Mr. Mittelstadt received a BME from General Motors 
Institute (now Kettering University) in 1958, an MBA from Wayne State 
University in 1965, and completed the Tuck Executive Program at 
Dartmouth College in 1980.
    Mr. Mittelstadt has served a number of volunteer organizations. He 
is a past Chairman of the NACFAM Board, and has been a member of the 
Board and chair of its Advanced Manufacturing Leadership Forum (AMLF). 
He has been a member of the Board of Directors of the Manufacturing 
Skill Standards Council (MSSC).
    Mr. Mittelstadt is listed in Who's Who in Manufacturing and Who's 
Who in Entrepreneurs. In 1992 he won the Joseph F. Engelberger Award 
for Robotic Industry Leadership. He is past Chair of the USA Robotics 
Industries Association (RIA), the International Federation of Robotics 
(IFR), the Board of Control of Michigan Technological University, the 
Board of Trustees of St. Luke's Episcopal Health Ministries, and the 
South Oakland County Chamber of Commerce. He is a past member of the 
Detroit Regional Chamber of Commerce Board of Directors, the Oakland 
County Executive's Business Roundtable, Bloomfield Hills City Planning 
Commission, Cranbrook Schools Board of Governors, the Vestry of Christ 
Church Cranbrook, and Past President and member of the board of the 
Bloomfield Open Hunt.
    Mr. Mittelstadt resides in Davidson, North Carolina with his wife, 
Susanne, a retired freelance writer and professional volunteer. The 
Mittelstadt's have seven children and fourteen grandchildren.

    Chairman Baird. Thank you very much, Mr. Mittelstadt.
    Ms. Poindexter.

  STATEMENT OF MS. MONICA L. POINDEXTER, ASSOCIATE DIRECTOR, 
          CORPORATE DIVERSITY, GENENTECH, INCORPORATED

    Ms. Poindexter. Thank you, Mr. Chairman and Members of the 
Subcommittee for inviting me to testify before you today. One 
of my responsibilities has been to partner with local community 
colleges to develop programs to train students to work in the 
biotechnology industry.
    Genentech was founded in south San Francisco, California, 
31 years ago with the goal of using human genetic information 
to develop novel medicine for serious and life-threatening 
diseases. We are among the world's leading biotechnology 
company with 14 products on the market and over 50 products in 
the pipeline and more than 10,000 employees. The key to our 
success has been our commitment to hiring the most qualified 
workers available and to provide an environment for them to 
succeed. Our goal is to recruit and retain people who are the 
best at what they do, people who are motivated, who have high 
standards of quality and integrity and possess a flexible, 
entrepreneurial spirit and are committed to improving human 
health.
    A particular focus of hiring in recent years has been in 
the area of product manufacturing. When the Food and Drug 
Administration approves a new drug, we face the task of 
creating up a technical workforce capable of manufacturing the 
product to the precise standards of the FDA. Traditionally, we 
have sought to hire these employees from four-year college 
institutions, but increasing we have seen the benefit of 
working with local community colleges to develop graduates of 
two-year programs who have the skills necessary to succeed in 
our industry.
    Our experience with two-year community colleges has proven 
they can be an important source of highly-motivated, well-
trained technical workers. Often, these students have some 
workplace experience before they enroll in community college. 
Their motivation for attending school is to develop the skills 
they need to qualify for the types of jobs we offer.
    In the mid-1990s, Genentech began to work with Solano 
Community College, located in Vacaville, California, to develop 
a biotechnology certificate program to provide technical 
education to students who had an interest in a career in 
biotechnology.
    The program began with a professor on sabbatical from 
Solano Community College who spent six months, working full 
time at Genentech to gain an understanding of our manufacturing 
processes. He spent an additional six months working with 60 
Genentech employees to develop a bio-manufacturing curriculum 
to train students. At the time, no school in the country was 
providing bio-manufacturing training, so the development of 
this program was the creation of a new academic discipline.
    The program teaches students the basics of chemistry and 
biology through a combination of lectures and laboratory work. 
In addition to the science of biotechnology, students learn 
about the regulatory environment in which we work. One of the 
best aspects of the program is that students experience working 
in a laboratory environment. The students must wear protective 
gowns, work in teams, prepare batch records, and perform other 
tasks that they would in a real manufacturing setting. They 
participate in an exercise in which they keep the lab running 
around the clock for four straight days by working in shifts. 
Much of their work is done with equipment donated by Genentech.
    In 2002, we launched a similar program. That program was 
inspired in part by the events of 9/11. The airline industry 
struggled following this tragedy, and many of the United 
Airlines mechanics from the San Francisco Airport were forced 
to seek new employment. We recognized that mechanics possessed 
skills that, with some training, could be transferable to the 
biotechnology industry. We partnered with the Center of 
Workforce Development at Skyline Community College, the San 
Mateo County Workforce investment and labor Council to develop 
a 12- to 14-week curriculum for a bio-manufacturing certificate 
program. Course instruction includes basic skills in biology, 
bio-manufacturing, chemistry and an introduction to 
biotechnology careers.
    Through the programs in which we are involved, we are able 
to help shape the curriculum to ensure that graduates have the 
skills we value in an employee. We have seen more than 500 
students graduate from the various programs with which we are 
involved, and many have been hired by Genentech and other 
biotechnology companies.
    Biotechnology is a high-growth, high-wage industry that 
provides an opportunity for people to build good, longstanding 
careers. It is a dynamic industry that is constantly in need of 
workers trained in specific technical skills. Our experience 
has shown that community colleges can be an important pipeline 
for the development of these workers.
    Thank you for the opportunity to testify before you today, 
and I look forward to answering your questions.
    [The prepared statement of Ms. Poindexter follows:]

               Prepared Statement of Monica L. Poindexter

    Thank you, Mr. Chairman, and Members of the Subcommittee for 
inviting me to testify before you today. My name is Monica Poindexter 
and I am the Associate Director for Corporate Diversity at Genentech, 
Inc. One of my responsibilities at Genentech has been to coordinate our 
efforts with local community colleges to develop programs to train 
students to work in the biotechnology industry.
    Genentech, which is based in south San Francisco, California, is 
considered the founder of the biotechnology industry. Genentech was 
founded 31 years ago with the goal of developing a new generation of 
therapeutics created from genetically engineered copies of naturally 
occurring molecules important in human health and disease. Within a few 
short years, Genentech scientists proved it was possible to make 
medicines by splicing genes into fast-growing bacteria that produced 
therapeutic proteins.
    Today, Genentech continues to use genetic engineering techniques 
and advanced technologies to develop medicines that address significant 
unmet needs. Genentech is among the world's leading biotechnology 
companies, with 14 products on the market for serious or life-
threatening medical conditions, over 50 projects in the pipeline and 
more than 10,000 employees.
    The key to our success has been our commitment to hire the most 
qualified workers available and provide an environment for them to 
succeed. Our goal is to recruit and retain people who are the best at 
what they do--people who are motivated to achieve results, have high 
standards of quality and integrity, possess a flexible, entrepreneurial 
spirit, are committed to improving human health, and want to develop to 
their full potential.
    A particular focus of our hiring in recent years has been in the 
area of product manufacturing. When the Food and Drug Administration 
approves a new drug we face the task of quickly scaling up a technical 
workforce capable of manufacturing the product to the precise standards 
of the FDA. Traditionally we have sought to hire these employees from 
four-year college institutions, but increasingly we have seen the 
benefit of working with local community colleges to develop graduates 
of two-year programs who have the skills necessary to succeed in our 
industry.
    Our experience with two-year colleges has proven they can be an 
important source for highly-motivated, well-trained technical workers. 
Often these students have some workplace experience before they enroll 
in a community college. Their motivation for attending school is to 
develop the skills they need to qualify for the types of jobs we offer. 
And the community college setting is ideally suited to teach these 
students how to work in a highly regulated technical environment like 
the biotechnology industry.
    In the mid-1990's, Genentech began to work with Solano Community 
College, located in Vacaville, California, to design a biotechnology 
certificate program to provide technical education to students 
interested in careers in biotechnology. At the time, we had just 
committed to build the largest biotech manufacturing facility for the 
large-scale production of pharmaceutical proteins in the world. We knew 
we were going to need to hire hundreds of qualified individuals to 
operate our new facility.
    The program began when a professor on sabbatical from Solano 
Community College spent six months working full-time at Genentech to 
gain an understanding of our manufacturing processes. He then spent 
part of the next six months working with more than 60 Genentech 
employees to design a bio-manufacturing curriculum to train students to 
work at Genentech and other biotechnology manufacturing facilities in 
the area.
    At the time, no school in the country was providing bio-
manufacturing training so the development of this program was the 
creation of a new academic discipline. The program teaches students the 
basics of chemistry and biology through a combination of lectures and 
laboratory work. In addition to the science of biotechnology, students 
learn about the regulatory environment in which we work. They learn 
about the structure and authority of the Food and Drug Administration, 
this history of key FDA laws, and how those laws led to the development 
of good manufacturing processes.
    One of the best aspects of this program is that students experience 
what it is really like to work in a bio-manufacturing facility. Working 
in a laboratory environment, students must wear protective gowns, work 
in teams, batch records, and perform other tasks just as they would in 
a real manufacturing setting. They even participate in an exercise in 
which they keep the lab running around the clock for four straight days 
by working in shifts. Much of their work is done with equipment donated 
by Genentech.
    By the end of this program, students know whether they have the 
interest and the skills to seek a career in biotech manufacturing. 
Roughly 60 of the 250 students who have completed the program at Solano 
Community College have been hired by Genentech and many others are now 
employed by other biotech companies in the area.
    The success of this program led to the creation of a similar effort 
at Miri Costa Community College in Oceanside, California, where we have 
another manufacturing facility. The curriculum has also been replicated 
at other community colleges across the country.
    In 2002 we began a similar effort with a community college near our 
headquarters in San Mateo County, California. This program was inspired 
in part by the tragedy of September 11, 2001. The airline industry 
struggled following 9/11 and many of the United Airlines mechanics at 
San Francisco Airport were forced to seek new employment. We recognized 
that the mechanics possessed skills that with some training could be 
transferable to the biotechnology industry.
    We partnered with the Center for Workforce Development at Skyline 
Community College, the San Mateo County Workforce Investment Board, and 
the San Mateo County Labor Council to develop curriculum for a bio-
manufacturing certificate program.
    The program was designed to prepare students who possess 
transferable skills from other occupations for entry-level positions in 
the biotech industry. Course instruction includes basic skills in 
biology, bio-manufacturing, chemistry, and an introduction to 
biotechnology careers. The course was designed through a joint effort 
by Skyline College, San Mateo Workforce and Development, and Genentech.
    The bio-manufacturing career pathway has five key phases leading to 
employment at wages of $35,000 per year and above:

        1.  The program begins with an outreach and assessment effort 
        to introduce industry opportunities to the students, gauge the 
        student's level of interest, screen for basic English and math 
        skills, and determine the candidates ability to succeed in the 
        program.

        2.  Phase 2 is a three-month bridge program to introduce 
        students to the industry, provide intensive training in 
        English, math and computer skills, and offer needed counseling 
        and support.

        3.  Next is a three-month college credited course providing 
        needed skills training including an introduction to applied 
        chemistry and biology, applied math, and lab skills.

        4.  Program graduates then have the opportunity to interview 
        for a 90-day paid try-out employment period at wages of $12-$15 
        per hour.

        5.  Finally, participants are assisted in finding full time 
        employment.

    In addition to providing training to the students, the program 
provides opportunities for continuing education for the faculty. The 
Faculty Rotation Program allows professors to gain an industry 
understanding of the core Product Operations functions that are 
critical to the manufacturing of Genentech products. It also provides 
them the opportunity to update their skills, curriculum and teaching 
styles to meet the real-time demands of industry in the classroom.
    The faculty program takes place over a six to eight month period 
and involves five rotation assignments within our Products Operations 
organization, including fermentation, recovery, lab services, media 
prep and filling. The rotations provide hands on experience and 
interaction with team members and management.
    Following the success of the program at Skyline Community College, 
we worked with another local school, Ohlone Community College in 
Fremont, California, to design a similar program. That program has been 
in operation since 2004.
    Since creation of the bio-manufacturing certificate program at 
Skyline College, and the addition of the program at Ohlone College, 350 
students have successfully completed the program and received a 
certificate. More than 90 percent of the students applied for 
internships at Genentech and 121 were hired as interns. In addition, 
six graduates were directly hired as full-time employees at Genentech 
and 46 of the interns have been converted to full-time employees.
    Through the programs in which we are involved, we are able to help 
shape the curriculum to ensure that graduates have the skills we value 
in an employee. These programs not only set students on a successful 
career path but they allow companies like ours to increase the base of 
qualified workers from which we can hire.
    The education of these students does not end when they are hired at 
Genentech. As with all employees of our company, we provide 
opportunities for these workers to grow their skills and develop their 
careers. Each year during our annual manufacturing shut-down we 
encourage our workers to take courses to refresh their technical skills 
and build their professional development. We also offer cross-training 
opportunities, where manufacturing employees do rotations in different 
jobs to become more well-rounded and gain greater understanding of 
entire manufacturing process.
    Biotechnology is a high-growth, high-wage industry that provides 
opportunity for people to build good, long-lasting careers. It is a 
dynamic industry that is constantly in need of workers trained in 
specific technical skills. Our experience has shown that community 
colleges can be an important pipeline for the development of those 
workers.
    Thank you for the opportunity to testify before you today. I look 
forward to answering any questions you may have.

                   Biography for Monica L. Poindexter

    Monica L. Poindexter is the Associate Director of Corporate 
Diversity at Genentech, the founder of the biotechnology industry with 
a quarter-century track record of delivering on the promise of 
biotechnology. Today, Genentech is among the worlds leading biotech 
companies, who manufactures and commercializes multiple protein-based 
biotherapeutics for serious or life-threatening medical conditions--
giving Genentech one of the leading product portfolios in the biotech 
industry.
    Monica has worked at Genentech for seven years; during her tenure 
at Genentech Monica has held positions as Sr. College Programs Manager 
& Sr. Staffing Manager. In these roles her responsibilities included 
overseeing the recruitment for New Grad Talent, and Internship/Co-op 
Program Management at the Community College, Undergraduate and Graduate 
MBA, MD, JD, Ph.D. educational levels recruiting across Genentech. 
Monica actively participates in filling the pipeline of diverse talent 
by tapping into professional diverse organizations such as NSBE 
(National Society of Black Engineers) NOBCHE (National Organization of 
Black Chemical Engineers), Black MBA & Hispanic MBA organizations. 
Monica was instrumental in developing Genentech's first formal 
Operations Rotation Development Program and is a member of ORDP 
Steering Committee. ORDP gives recent undergraduates and MBA graduates 
the opportunity to gain a broad perspective of the core Product 
Operations and Quality functions that are critical to the manufacture 
of Genentech products. In her current role as Associate Director for 
Diversity, Monica is responsible for developing comprehensive 
recruitment, retention and development programs that create a culture 
of inclusion at Genentech where Diversity of thought, style and 
cultures are valued within the company.
    Monica's work in the area of Workforce Development for Genentech 
has led to the development of signature programs such as the 
Biotechnology Certificate Program. From this partnership the Department 
of Labor awarded a $2 million grant to a group of local work force 
investment boards and community colleges, to continue work on programs 
designed to train local workers for jobs in biotechnology. Genentech 
has already developed a program in partnership Skyline Community 
College to retrain laid-off airline workers in the Bay Area and has 
launched the same program at Ohlone Community College (Fremont, CA). 
These programs have been expanded to include other sectors that have 
experienced significant reductions in work force. Genentech helped to 
develop the curriculum for the three-month training program, which is 
designed to prepare students who possess transferable skills from other 
occupations for entry-level positions in the biotech industry. Course 
instruction included basic skills in biology, biomanufacturing, 
chemistry, and an introduction to biotechnology careers. The course and 
internships prepare trainees specifically for positions as 
Bioprocessing Technicians, Media Prep Specialists and Pharmaceutical 
Packaging and Materials Specialists. Graduates have an opportunity to 
interview and many have joined Genentech for both 12-week, paid 
industry internship positions and regular full-time positions.
    In addition, Monica is the co-founder of the Genentech Scholars 
Program. The goal of this program is to provide an inroad for diverse 
students to gain access to the biotech industry by providing, a paid 
internship, a scholarship and potential job placement upon graduation. 
The Scholarship Program is beginning its sixth year of service awarding 
22 Scholarships to targeted Bay Area & San Diego High Schools, 
Community Colleges and Undergraduate Institutions. To date, the 
Genentech Scholars Program has awarded $509,000.00 in Scholarships and 
provided over 75 internships to the Genentech Scholars throughout the 
Bay Area.
    In Monica's spare time she is involved in developing and delivering 
Business & Professional Etiquette workshops to Bay Area community 
organizations. She serves as an Advisory Board Member for the UC-
Berkeley SAGE Scholars Program and serves on the State of CA Workforce 
Investment Board Life Long Learning Committee.
    Monica holds a BA in Sociology & Law and Society from University of 
California at Davis and a Master's Degree in Human Resources 
Organizational Development from the University of San Francisco. Monica 
is an INROADS Alumna.

                               Discussion

    Chairman Baird. Thank you very much, and I appreciate the 
witnesses' perspectives, and particularly, it is nice to hear 
that we have got some success models out there.
    So the process, now, is we will exchange a series of 
questions, and in this particular committee, we actually enjoy 
a good dialogue. We are not here to put you on the spot or you 
are not taking an oath in this case. We have occasionally done 
that, but not in this kind of hearing. So this is really our 
chance--if there are things that you feel that we are not 
asking about, feel free to pitch those in as well.
    One of the puzzles, as we have prepared for this hearing, 
is that we hear a lot of concern about the out-sourcing of 
jobs. We hear, at the same time, concern by manufacturers that 
they can't get employees domestically. And then we hear that 
sometimes when these programs are created at community 
colleges, there is a problem keeping enrollment.
    And one of the challenges must be--and I will ask Dr. 
Pumphrey this--if you are trying to decide whether or not to 
initiate a program like this, you have got to decide what the 
costs are, what the numbers are, what the demand is out there, 
where we are going to get it. Exactly how does this issue of 
marketing play into this in terms of assessing the probability 
that you will get the demand from the students to actually take 
the courses if you make the investment? How does that play in?
    Dr. Pumphrey. If you have to evaluate whether we are going 
to have students and what the likelihood of having students 
would be, I would tell you that I haven't worked for a single 
college that had a line-item funding for marketing from any of 
its funding sources, so it tends to be an underdeveloped arm, 
at least in the community colleges I have worked for.
    I think you have some challenges around marketing 
manufacturing programs, unless there is a high-visibility 
corporation in the community. One of those challenges has to do 
with all of the publicity around things like outsourcing which 
has gotten way more marketing than it has substance in truth. 
Then many of the young people growing up now have been in 
households that have been through dislocation in the 
manufacturing workforce, so that is something that we have to 
deal with as well, so it can be a real challenge.
    Certainly, the work is fascinating at this point, very 
clean, very sophisticated. It involves a lot more discretion by 
the individual worker, even at the operator level, than what 
was true in the past. These are good careers. Their wages are 
above average. There are promotional opportunities. It is not a 
difficult story to tell, but I don't think either the college 
or industry have done enough, as much as they could have, to be 
wholly effective at marketing these programs.
    Chairman Baird. That issue that you need an anchor-tenant, 
so to speak, almost. It seems critical, and Ms. Poindexter, in 
your case, you have that with Genentech. How has Genentech 
reached out to the community and to the potential pool of 
students and applicants to get the message out to parents and 
student and school counselor, et cetera, here is a potential 
career path? What have you done on that front?
    Ms. Poindexter. So I would say, number one, is partnership 
between the three entities of industry, academia, and 
government. The other aspect is co-creation. And when we look 
at how do we attract, I guess, the future-talent pipeline, 
biotechnology is innovative. It is fun, and it is something 
that is new. And I think students that have come through the 
program, it is word of mouth. When they have successes, as far 
as their experience being in the biotechnology industry, 
experiencing what it is like to work in a manufacturing 
environment, being responsible for multimillion dollars of 
product, that is something to celebrate, something that is 
exciting and something that is new.
    So when students have good experiences, they talk about it. 
When you have professors that are also working in industry but 
also working at the college/academy, it is very easy to 
generate a buzz. So I would say it is definitely the 
possibility of placement that has helped us as well.
    In Genentech, we are definitely in accordance within the 
South San Francisco area and we have had a lot of success with 
being able to hire students into entry-level positions, so it 
is something good to talk about.
    Chairman Baird. Dr. Fonash, does Ms. Poindexter's comments 
sound similar to your experience, or are there other issues you 
would like to raise on that topic?
    Dr. Fonash. Well, I have heard a number of things here that 
sound very similar to my experience.
    Number one, I do, definitely, think community colleges need 
more marketing. From what I have seen, they don't have the 
marketing experience; they don't do it. But more marketing is 
needed. Parents, generally, are interested in sending their 
child to a four-year institution, and they don't think of two-
year institutions. People can go to two-year institutions, and 
there can be very nice pathways to four-year institutions, but 
that doesn't seem to get sold.
    And then, some of these programs, the students can go to a 
two-year institution and actually have better hands-on 
experience and learn more than they would in a four-year 
program. For example, in engineering--I am an engineering 
professor--in four years, your students very infrequently see 
actual equipment and get to work with equipment. Most of the 
training is theoretical. In a two-year program, they can have 
hands-on with the very latest equipment.
    More needs to be done in that marketing. More needs to be 
done to get that idea across to the parents and to the 
students, so I certainly echo that comment of marketing.
    The other comment about jobs, I think jobs are definitely 
moving out of the U.S., but what is happening is it is sort of 
a filtering process. What you are left with are the more 
demanding jobs, and industry is trying to fill those more 
demanding jobs, and that requires the higher-education 
standards, and therein lies the problem. If we are going to 
keep those jobs in the U.S., we have to meet those more 
demanding requirements of the education.
    My comments on what I have just heard, I think that 
industry is a very vital part of this. Obviously, I, coming 
from a research university, I think research universities are a 
very vital part of this also, and obviously, the community 
college community. My mantra, if I will, for today is that 
research universities do so much in their involvement with 
industry, creating those new opportunities, those new 
manufacturing possibilities. They need to do more with 
education at the technician level, also, and helping the 
community college.
    Chairman Baird. I appreciate that. Mr. Mittelstadt, we will 
get to you in just a second. I would like to acknowledge my 
colleague, Dr. Ehlers, for five minutes, but I am sure you have 
got something to add, so we will get back to you.
    Mr. Mittelstadt. Sure.
    Mr. Ehlers. Thank you, Mr. Chairman.
    It seems to me that there are three potential sources of 
good technical workers. One would be students who have dropped 
out of high school and have desire to get a good job and 
obviously need some training, those who have gone to high 
school and have opted not to go on further than that, and those 
who have been employed in some jobs, perhaps technical jobs, 
and find themselves unemployed for whatever reason.
    Can you give me--and this is general for any one of you who 
wish to comment--can you give me roughly what percentage would 
be in each of those three categories. Are there any high school 
dropouts that fit neatly into your programs, or do they have to 
go back and get a GED or go back to high school?
    Dr. Pumphrey.
    Dr. Pumphrey. Well, I have had experience with that. I 
would tell you that it is few and far between. I had a rather 
remarkable instance of a fellow who is about 40 years old, who 
came to our college functioning at the fourth- or fifth-grade 
level. He hadn't finished high school. He had a history of 
substance abuse and problems with the law, and he persisted all 
of the way through getting a GED, had to take a couple of more 
courses before staring a program in instrumentation and process 
control, and today he works as an engineering technician for a 
very prominent company in their research facility. Those things 
can happen. It is not a normal pathway and would not be a high 
percentage.
    At the other end of that continuum would be dislocated 
workers, who have already worked in a manufacturing location 
and understand the culture of manufacturing and need a slightly 
different set of skills to move into new and developing job 
opportunities. We have had a lot of success with those.
    And in the middle would be recent high school graduates, 
who have thought about a lot of things, but manufacturing 
careers are not necessary one of them. One of the conundrums 
that I do not wholly understand is why we have waiting lists 
for allied health and nursing programs, and one could talk 
about the working conditions and wages in those careers in 
similar terms that one might discuss manufacturing, but they 
have a drawing power in the public imagination that we haven't 
been able to achieve, in most cases, with manufacturing 
technicians.
    Mr. Ehlers. Well, I think a good part of that is you read 
many stories about the coming shortage of nurses and that there 
will be lots of jobs. At the same time, you read stories about 
Michigan--pardon me--U.S. manufacturing losing jobs, going 
offshore and so forth, so I can easily see where that would be 
a perception.
    But just again, roughly what percentage would be the high 
school graduates? What percentage would be displaced workers? 
Any of you?
    Dr. Pumphrey. I will give you a statistic that may help in 
thinking about that. The average age of our student at our 
college parallel or college transfer programs is around 20, and 
the average age of the students in our technical programs is 
around 29.
    Mr. Ehlers. Okay. That is helpful. Any other comments on 
that?
    Okay, Ms. Poindexter, you took some people who had worked 
in manufacturing and converted them to the biotech industry. 
Were there any particular problems in that, and how specific 
did the training have to be, or did you give them rather broad-
based, general training so they could have gone to work for any 
company, not just to Genentech.
    Ms. Poindexter. Right. We were fortunate to have one of our 
very own Genentech employees who was an adjunct professor at 
Skyline Community College, who helped develop their 
biotechnology curriculum, based off of Genentech's 
manufacturing processes and procedure. So therefore, the 
students, in addition, from that same school--from Skyline 
College, we had the professor of the biotechnology program 
spend almost a year, on and off, working through five different 
rotations throughout our manufacturing facilities, and so he 
was then able to experience--his mantra was I want to know what 
my students are learning so that when they are in the 
classroom, I can translate that into a curriculum that is going 
to be meaningful, that will lead to an exact position for 
either Genentech or for the broader biotechnology industry. So 
once again, it is that co-creation and that partnership where 
we are there in the classroom as well as when the faculty comes 
to Genentech to learn.
    Challenges, I would say, and I think it was actually 
mentioned in one of the previous testimonies, was really just 
around the speed, for a just-in-time workforce, and so when you 
have the pressures of getting a product out the door, it is 
ensuring that you have a workforce that understands what it 
takes to get it out the door. And so I think one of the 
pressures has been to ensure that we have a viable pool, just 
in time to meet our demand for hiring individuals for those 
important positions in manufacturing.
    Mr. Ehlers. Thank you. My time has expired.
    Chairman Baird. Mr. McNerney is recognized for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I thank the 
panelists for coming out here today.
    Dr. Fonash, one thing you said was that matured 
manufactures typically go overseas, and so in order to maintain 
our sort of eminence, we have to have cutting-edge and 
innovative business that keep us in the lead, that keep 
manufacturing going. That is a fairly stiff thing to do year 
after year, decade after decade. Surely, maintaining American 
university preeminence in the world is key to that, but also 
the need to produce highly skilled and innovative technical 
workers.
    Now, in my district, the largest city is Stockton, 
California. It has a high school that has been very successful 
in turning problem students into very motivated people through 
their vo-tech program. It is strictly a vo-tech school. They 
have the higher rate of students going onto college than do the 
academic high school, and that tells me that there is a huge 
symbionce between vo-tech and academic training.
    Would you comment on that?
    Dr. Fonash. Well, one of the things that we have done in 
our partnership in Pennsylvania is to try to create a pathway 
from the vo-techs and the academic high schools to the 
community colleges. We call it the two-plus-two program. And 
then we also work to create clear pathways from the community 
colleges into the four-year degrees, and we call that a two-
plus-two-plus-two program.
    But I was amazed when I first became active in this aspect 
of education that these kinds of pathways were not defined at 
all. At least in Pennsylvania, they hardly existed, and in 
Pennsylvania, there were very few clear pathways from a 
community college to a university, just about no pathways from 
vo-tech, that is non-academic high schools, into community 
colleges.
    I can proudly say that since our partnership as an ATE 
center has been functioning, creating such pathways has been 
one of our objectives, and I can say one of our achievements is 
establishing these kinds of pathways, and so we now have them 
in Pennsylvania, and in fact, the Pennsylvania Department of 
Education now uses our model for pathways from vo-tech and 
academic schools into community colleges.
    So what is needed? I think it is always motivated faculty, 
but I also think there has to be administration who have to 
make sure there are clearly defined pathways in place. 
Appropriate State agencies have to take a look at this. These 
sort of pathways have to be in place. I think they are very 
important.
    Mr. McNerney. Well, one of the things that Ms. Poindexter 
pointed out was that these students are exposed to very high 
levels of responsibility and reward for the kind of work, and I 
think that motivates the students to understand the need for 
academic achievement as well so that they can enhance those 
skills.
    And concerning that program that Genentech has, one of the 
questions I have is you worked with Skyline College in that you 
opened up an office in Vacaville. I don't know if it is still 
open or not. How likely is it that you will open an office in a 
location that has a community college that does put out good, 
well-trained students?
    Ms. Poindexter. I would say that one of the assessments 
whenever Genentech is looking at a future site is around the 
academic surroundings because we do recognize that that is 
where a portion of the workforce would come from. I would just 
kind of respond to a portion of your answer with one our area 
of focus is also to ensure that those who may not be quite at 
that point for the two-year degree programs, we also have a 
partnership for a bridge for the purpose of being able to 
expose students to the two-year degree program before they 
actually go into a biotechnology certificate program. And that 
kind of addresses looking at how we are reaching down to 
students who are at the at-risk level.
    So I would say that, you know, that when we are looking at 
future manufacturing sites, one of the factors is looking at 
the education system, both at a two-year, advance level, as 
well as with research institutions in the area.
    Mr. McNerney. Thank you.
    Ms. Poindexter. You are welcome.
    Mr. McNerney. I yield back.
    Chairman Baird. I thank the gentleman. Mr. Miller, five 
minutes.
    Mr. Miller. Thank you, Mr. Chairman. Undoubtedly, I am not 
a Member of the Subcommittee, but this is a topic of great 
interest to me. Community colleges, nationally, are hugely 
important to the American worker: 11 or 12 million Americans a 
year enroll in community college courses. But it is even more 
important in North Carolina. I am sure you know that, Dr. 
Pumphrey.
    Eight-hundred thousand students are enrolled in community 
college courses in any given year. It is one in eight adult 
North Carolinians. And it is sometimes very specifically 
tailored to job needs. I know that Dr. Pumphrey and Dr. Fonash 
have cautioned against programs that are too neatly tailored to 
job need, but Waite Technical Community College has an 
extrusion campus to teach skills used in the extrusion 
industry--extrusion is a process of pulling soft plastic and 
letting it harden in different shapes--in an area where there 
are 30 or 40 manufacturers using that technology within a 20-
mile radius. Alamance Community College had a biotechnology 
degree program, and the great majority are placed with one 
employer, Labcorp, which is one of the leading medical testing 
companies in the Nation. And students go directly to work from 
that program.
    And I could go on. There are lots and lots of curricula 
that are specific to a particular community college in North 
Carolina that are tailored to a specific industry that is 
concentrated there, either a single employer or concentration 
industry, and it becomes kind of a mutual draw of industry to 
the area because of the community college programs and the 
prevalence of jobs, the availability of jobs in that area.
    Ms. Poindexter, from the employer's standpoint, how should 
that balance be struck? How important is it that the skills of 
the employee come almost to the point of being ready to go to 
work the first day, and how much of it should really be taught 
at the workplace by the employer, based upon a more general-
understanding education or job-skills training provided at the 
community college.
    Ms. Poindexter. Right. I think more importantly, as far as 
for the focus for the specific skills that are needed, I think 
that is just to get the students into the door, to start off a 
career path. And once they get into a company like a Genentech, 
that is where we would provide them with the necessary skills 
to take them to the next level. But when we are looking at the 
specific technical skills, that's what is lacking, so in order 
for the students to even have an opportunity to get into the 
manufacturing industry, it is the baseline exposure of what it 
is like to be working in a highly-regulated FDA environment, 
and so that is something that I think it does need to be 
specific to a point that in certain aspects you do want 
creativity, but in other aspects of manufacturing, you don't 
want to have the creativity. So to have the full knowledge and 
understanding of what this environment and what this career 
path leads to, I think the more specific that we can be for 
certain niche-specific areas like manufacturing lab ware, 
glassware, where it requires technical capacity, I think that 
is very important. But once they get into industry, that is 
where industry will actually provide them the upgraded skills 
training so that we can then open up broader opportunities for 
promotion as well for future leadership positions within the 
company, because I do think it is important to have some 
technical level foundation on beginning and then to broaden out 
the horizons once they are in the industry.
    Mr. Miller. Thank you.
    Mr. Mittelstadt, you also, from the employer's perspective, 
what is your perspective on that?
    Mr. Mittelstadt. Well, I come from a somewhat different 
perspective because I went to a small, private school in Flint, 
Michigan called General Motors Institute for my undergraduate 
degree, so I fully agree with Dr. Fonash's comments about the 
advantage of having people who are working almost at the same 
time as they are learning. I also agree it is really helpful to 
have as much technical background as you can from the school as 
possible, so you can be the best employee you can be once you 
do start.
    But all individuals are coming from different points of 
view, and all programs are coming from different points of 
view. So I guess my answer is in a sense all of the above. It 
works very well in Alamance where you have got a particular 
employer who has got a certain set of requirements and probably 
will have for a few years, but maybe not for decades. Maybe the 
community colleges have got to be looking at what is coming 
next in terms of the future.
    But I think all of those things are important having those 
kinds of skills, and I think that is where the community 
college really shines. By definition, as indicated by Dr. 
Pumphrey, their demographics are more experienced people, 
people that have been out there that understand a little bit 
about what is going on in the real world and see why they are 
doing what they are doing in the classroom and where it is 
going to apply. And I think ultimately, you are going to get 
better students as a result of that, and that is why a lot of 
our member companies really do partner extensively with 
community colleges because on average, those students in those 
institutions are motivated to really get some knowledge that 
they can use for a career.
    Chairman Baird. I thank the gentleman. Dr. Bartlett is 
recognized. He will fill in the chair while Mr. Ehlers has a 
meeting with some constituents. Thank you for rejoining us, and 
you are recognized for five minutes if you have some questions.
    Mr. Bartlett. Thank you very much. I am sorry I couldn't be 
here for all of your testimony. In a former life, I taught for 
12 years at a community college, and so I am very familiar with 
community colleges and how well they work with the businesses 
in the area. At our community college, we would offer any 
course that was desired by the industrial business community as 
long as there were enough students to make it a defensible 
thing to do. And there were some times when we started small 
with the hope that it would grow so that next year we would 
have enough students to justify what we were doing this year.
    The working relationship between our community colleges and 
the business around them is really exemplary. The community 
college right next to me in Washington County has a program to 
train truck drivers, and they partner with Volvo Power Train, 
which we used to call MAC truck, and they have provided all of 
the trucks and all of the courses for training these truck 
drivers. That is a pretty pedestrian kind of need, but it is 
one which is really needed, as you may see from the back of 
trucks. They are all giving a 1-800 number. Please call. We 
have a job for you if you are qualified. So there is a huge 
need there, and that probably is one of the most pedestrian 
things that I can think of that community colleges are doing, 
but it is a really necessary thing. If you got it, it was 
probably brought by a truck, wasn't it? And without truck 
drivers, it is not going to get there.
    But the big problem in this area is not the working 
relationship between our businesses and the community colleges, 
which is going very well. The big problem is finding enough 
students who are interested in this kind of work. And as you 
know, there are many industries that tell us that if we can't 
increase the number of immigrants who are coming in on 
temporary work visa to fill the needs that they have, that they 
are moving their company overseas where the workers are.
    And at the same time, we have far too many of our people 
working at jobs that pay far less, far less rewarding than if 
they were in these areas. How can we inspire our young people 
to be more interested in this? It is a matter of perception; 
the average person in our society does not perceive of these 
jobs as being either well paying or rewarding. And another 
thing I did in a former life was I built homes, and I will tell 
you that in many respects what I did then is a lot more 
satisfying than what I do now. They will little know and long 
remember what we do here today, but if I built that house 
right, in 100 years from now, it will still be there. And there 
are a lot of rewards from this kind of work.
    But in our society, we don't perceive these as being 
desirable or rewarding career paths. I suggest that what we 
need to do is to have people working in these areas come to the 
school and to the PTA meetings with their W-2. These jobs 
really pay very well, and they are very rewarding. And as you 
know, I am a farm boy and a hands-on kind of person, and I will 
tell you that these are very satisfying kinds of work.
    And what can we do so that we have more of our young people 
and their parents as they sit around the dinner table talking 
about, Junior, what are you going to do? Why don't you look at 
one of these technical areas? There are huge needs and big 
rewards. But that is not what the average parent thinks. How 
can we change that?
    A society gets what it appreciates, and we really don't 
appreciate those people like we should, do we?
    Mr. Mittelstadt. I don't think that there is any question 
that that is a major challenge, and it is a challenge that goes 
far beyond any industry's capacity to meet it. It is one of 
those challenges that requires what I call intense 
collaboration between industry, education, and yes, government. 
The media as well, but the media gets influenced by all three 
of those constituencies, and you folks have a major impact on 
the media. And when you go back on your campaign next time, 
talk again with your opponent about that. What are you going to 
do about this problem? Make sure they understand what Dr. 
Fonash indicated. That off-shoring, for the most part, are jobs 
that nobody wants to do anyway because they are those dumb, 
dirty, dangerous, dull, and disappearing--I would add a fifth 
one--jobs that people are talking about all the time. Those are 
the jobs--you don't want to protect those jobs. You want to get 
people interested in the new kinds of jobs that are out there, 
but it takes all of us working to really get that point across. 
Every time we get a chance, we have to do it, no matter whom we 
are talking with.
    But if you can help us in terms of that, then maybe, you 
know--we used to say in Chevrolet that you spilled that much in 
a day, right? When you got down to some program that somebody 
didn't want to do, well, gee, you know, you can spill that much 
in a day. Well, certainly that is true here in Washington. 
There must be some place somewhere somehow in this trillions-
of-dollar-kind-of-federal-government situation where we can 
find a few million dollars to help get that message across. 
Maybe it is an academic research project that says how you do 
it, but give it to a school that is known for applying that 
stuff too.
    There are a lot of challenges there, and there are things 
being done, but it is never enough. I mentioned that Dream It 
Do It Program. It is aimed at that. There are a half a dozen of 
them in regions around the country now, doing that kind of 
thing, trying to get that message across, but you can't stop 
there. It has got to keep going.
    Mr. Bartlett. Mr. Chairman, I was only half-joking when I 
said we ought to send them with their W-2. We have people in 
all of these skills that are very articulate. We need to search 
them out and we need to give them incentives, and your company 
needs to really pay them, give them some time off, some 
compensatory time to go out and pitch this because we have some 
very articulate people who are making very good money. Go with 
the W-2 and pitch this thing, and you will turn people on, but 
you have to do it early before they decide to become a lawyer 
or a political scientist. I tell young people these are two 
potentially destructive pursuits. We have enough of each of 
those. We need some people in these other areas, don't we?
    Thank you all very much. Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Bartlett. I am going to take 
this--I will recognize Mr. Bilbray in just a second--an 
opportunity to respond to Mr. Mittelstadt and Dr. Bartlett's 
comments as well and make a shameless plug. As you know, in the 
Congress, when there are people of like minds, we form what is 
called a caucus, and there are a host of different caucuses. 
Myself and Phil English recently established the bipartisan 
career and technical education caucus. And I would welcome your 
input, and when I have a chance to ask some questions, I will 
ask about that. But it is a chance to do precisely what Dr. 
Bartlett and Mr. Mittelstadt are talking about. My goal of our 
caucus, one of them, would be that in the next presidential 
race, when presidential candidates are running for office, they 
don't simply talk about making a college education affordable, 
but they add the words career and technical education.
    And by the way, I will share this with people on both sides 
of the aisle because I don't see it as a partisan issue. When 
you add those two words, you expand your reach by a minimum of 
17.4 million people who are involved in career and tech 
education, and you can add to that all of the employers who 
recognize the need for these employees. So we will reach out to 
you and maybe you can help us spread the word.
    Mr. Mittelstadt. We look forward to working with you on 
that because a lot of these issues need to get in that 
campaign. They need to be talking about these things at the 
national level. That is how parents start thinking about it.
    Chairman Baird. And if politicians start showing it respect 
and attention, it will expand that reach.
    Mr. Bilbray is recognized for five minutes. Thank you for 
joining us.
    Mr. Bilbray. Thank you, Mr. Chairman. I appreciate it.
    I almost have to look at my family where all three girls 
are college graduates and academic achievers, and the boys took 
after dad, and let us just say, are trying to fill the middle-
class spectrum within the family. I guess that is what we are 
really talking about here is the preservation of the middle 
class and retooling what the middle class means, and sadly, it 
seems like the middle class is not only not embraced, it is 
almost ridiculed. So much of the media and TV shows we see is 
based on that.
    My question, though, is--and Eric, you can jump into it--I 
say where do we go in government in our intervention? Do we 
send a bunch of government people out to talk about, you know--
let us face it. I think that the Walton Foundation has probably 
done more than all of the governments in the country combined 
talking about, you know, keeping kids in school, getting them 
to learn basic skills, usable skills out in the real world, and 
I just wonder how much we can help. And maybe our emphasis 
needs to be stop hurting it so bad. I don't know how far we 
shall get into it, but we have almost created this illusion or 
this big lie that if you are not a white-collar worker, you 
might as well be on welfare because that is all that matters. 
You know, there is a level here and a level there.
    I would ask you more not what does government do to move 
the agenda, but what government can do to get the hell out of 
the way and aide in other people moving the agenda, just as the 
Ranking Member was talking about actually having corporate 
spokesmen, not government spokesmen going out there.
    And I will leave that open to any one of you to comment on.
    Mr. Mittelstadt. Well, let me start a little bit. I didn't 
mean to say we need multibillion dollar programs. We maybe need 
a little bit to help jumpstart some of the data behind this, 
but I do think that you have a bully pulpit that you need to 
use because you people are the ones that get people thinking 
about issues. That is what you do. When you get reelected, you 
go through a campaign, you talk about issues--at least you try 
to. Sometimes it goes into other things too, but you have the 
opportunity to get that message across, and I think it is 
important to do that because it then flows into the local K-12 
system. You have got school board members that are responding 
to the parents. The parents have to begin to understand that. 
So there is a big communication problem here.
    We will do it too. Industry certainly wants to do it, and 
most of my members exactly agree with you. Government stay 
away. We don't need your help, except when it is this or that 
or the other thing for us, of course, but that is the American 
way of life, I guess. But I think it is more than money. It is 
talking about it. It is getting the awareness of it because we 
are talking about an awareness problem.
    Ms. Poindexter. I would like to add just a couple of 
comments to that. I sit on the State of California Lifelong 
Learning committee, and some of the issues that we talk about 
are opportunities where government can influence, pretty much, 
access to biotechnology or even access to innovative 
technologies. It is really education around how to develop 
scalable programs.
    In some of the comments, we were looking at, and I think 
they were talking about the class sizes are maybe a small 
cohort, but if we have an industry that is high growth and high 
wage, and we may not have professors or teachers that even 
understand what the industry is, That is part of the area where 
we focus on educating our teachers.
    I did a lot of college on-campus recruiting, and you would 
not believe when we go to the college campuses, the teachers 
and counselors are the influences around, sometimes, where 
students go for their next career or where they go for college 
and what majors they have in college. And if teachers do not 
even know about nanotechnology, if they don't know about 
biotechnology, then that limits the scope of where students can 
be tracked for a two-year or four-year degree area.
    The challenge or opportunity that government can influence 
is helping to educate industry of how we can access some of the 
programs and how we can partner with workforce investment 
boards to be able to develop just-in-time workforce 
partnerships or programs. Sometimes it is really knowing the 
right people, but also knowing how to utilize certain dollars 
as well as have a leverage to partnerships within the county or 
local workforce investment boards that would help us develop 
this future talent pipeline.
    So I think its education and the other piece of it is 
looking at Congress or the government to use the technology of 
how people of my generation learn of educational programs and 
learn how to access programs.
    Mr. Mittelstadt. I would echo that access issue, and that 
is probably administration more than Congress, but it is 
something that you might want to be talking to the respective 
agencies about. Smaller companies, particularly, and there are 
over 300,000 small and medium-sized manufacturers in this 
country. They don't have time to figure out what program they 
can go to. You got stuff out there that is not even being spent 
because people don't have the ability to understand and access 
it. So access to those programs is an important feature.
    Mr. Bilbray. Mr. Chairman, I know my time is expired. Let 
me just say as somebody who comes from one of the most plugged-
in districts in the world, North San Diego County, that I will 
just tell you something. I think if you want to look around at 
educational institutions that can plug people in one way or the 
other, Fairfax is second to none. They start early. They start 
right as they get into high school and middle school, and it 
continues on through the community college process. And I have 
got to give very high grades to a little county in Northern 
Virginia. I think they are second to none, and maybe a lot of 
what we can get is just listening to our neighbors on the other 
side of the river.
    It is almost--I hate to take the cheap shot, but it is 
almost like a yin and yang here between the District's 
structure and Fairfax structure, and culturally, we are not 
that far apart. But educationally and institutionally, there 
are huge gaps there, and really, I think it would be beneficial 
for anybody who really wants to talk about a national prototype 
to take a look at where something works and where it doesn't 
work, right across the river from this little creek you call 
the Potomac.
    Thank you very much, and I yield back.
    Chairman Baird. Thank you, Mr. Bilbray.
    We will do a second round of questioning, and this is a 
chance for us to follow up on some issues we haven't touched 
base on, but feel free, also, if there is something you feel is 
urgent that we haven't addressed.
    One of the questions I have about this is, my understanding 
of some of the high technology and manufacturing--and Mr. 
Mittelstadt, maybe you can speak particularly to this--is that 
if we--that it sort of works like a bicycle pace line, if you 
ever watch those bicycle races. When you fall off that pace 
line, you are done. You can't get back on it because you are 
out of the slipstream, and once it goes, it just goes off 
without you.
    And I have been talking to some our high-tech manufacturers 
back home. We have got a lot--Sharp Microelectronics, Hewlett 
Packard are in my district. Once this goes offshore or leaves 
our borders, you lose the workforce with the feel for the 
process. If you are not dealing with the 300 millimeter wafers 
somebody else is, and all of the things that go with that, you 
lose. If you are not dealing with the day-to-day process of 
producing a genetically engineered pharmaceutical or bio-
ceutical, you lose that feel and you lost that feedback 
mechanism, plus you lost your personnel. People will go 
somewhere else. And the hard part is getting back on that. And 
I am particularly interested in knowing if that is of concern 
to you folks, because you can't just keep generating new pace 
lines. You have got to somehow stay in that. If you fall off 
the training loop, what happens? And how do we not have that 
happen?
    Mr. Mittelstadt. You are right. That is difficult for 
companies to come back under those circumstances. I am sure, 
there are examples of them having done it, however. We have 
seen some examples of people who have off-shored and then 
brought it back, and yes, had a difficult problem doing it but 
were able to because of lots of other factors. You can't give 
up just because it is a problem.
    More importantly, we are trying to get more and more 
smaller companies to understand that there are lots of 
techniques that they use on a day-to-day basis that don't 
require all kinds of resources that allow them to compete. And 
we often use an example of a small company in North Aurora, 
Illinois that basically was supplying flywheels to a major 
construction equipment manufacturer. They were the sole-source. 
They got told by the major company, either meet the Chinese 
price, or you will lose the business. The father called the two 
sons in and said, look, I am going to retire in three or four 
year, if you don't figure out how to solve the problem, you 
don't have anything for your future, so they figured out how to 
solve it. And they did it. They made it happen. They looked at 
what they needed to do with automation, with 6 Sigma quality 
control, training their workers, doing all kinds of things. A 
hundred-person company, they wound up meeting the price, even 
though it didn't include all of the other things that go along 
with it, it was just labor, material, and freight. It didn't 
include all of the other stuff about how the customer had to do 
all of the quality things and educate the Chinese workforce, et 
cetera, et cetera. They still met it. And they wound up 
expanding their business and qualifying for other work with 
other companies. And there are hundreds, if not thousands of 
examples like that, but it takes an awareness on the part of 
people to exercise that leadership.
    And here again, that bully pulpit is important. It is 
important for folks that are in the public domain to be talking 
about that. And maybe I am overemphasizing that, but the media 
listens to politicians. They don't listen to companies. They 
don't listen to, maybe even educators, as much as we would like 
them to, but they cover your campaigns, and if you can talk 
about these kinds of things and get that kind of ability to 
influence the media, I think it will help. We will work with 
you in terms of anything we can do to help make it happen.
    Chairman Baird. Are there others who want to comment on 
that issue?
    Dr. Fonash.
    Dr. Fonash. Yes, if I may comment, I think that once you 
fall of that pace, you are off the pace, and I think the only 
answer to is it to create a new line. And instead of making 
chips, for example, you should turn to something like self-
assembly for transistors or the kinds of things that people are 
exploring with nanotechnology. That is what I believe. I 
believe that these races will go off, but you have to create a 
new game, a new race, and I think you have to do that all of 
the time, and you have to have the technology workforce that is 
capable of staying up with that kind of a pace.
    I think the pace is there. I think it is only going to get 
faster.
    Chairman Baird. That will carry certain problems with our 
colleges, I would imagine, to keep up.
    Dr. Pumphrey.
    Dr. Pumphrey. Maybe I am not as sanguine about our 
prospects as my colleagues. I had an interesting personal 
experience. I attended a departmental graduation for my 
daughter at North Carolina State University in December of 
2005. It was in the college of textiles and that is certainly a 
manufacturing industry that is employing high technology today. 
It was a December graduation, so it was fairly small, three 
dozen baccalaureate graduates. Probably 80 percent of the 
graduates from North Carolina and Virginia, 12 Master's degree 
candidates, half of them from the United States; seven Ph.D. 
candidates, one of them from the United States.
    These folks are being educated, not just so they can manage 
production lines, but the work that gets designed in the United 
States. They are going to take the competition to a higher 
level, clearly, with the expertise they get in our research 
universities, so I think the race gets faster which makes it 
even more problematic if you fall out of line.
    Chairman Baird. Ms. Poindexter, do you want to add a 
comment?
    Ms. Poindexter. I would just say in relation to the two-
year degree, when looking at international, we are really 
looking at our local pool to keep and maintain from the local 
community colleges and our local communities where we have our 
manufacturing facilities. So that is where it makes sense for 
us to keep our workforce local, especially relating to the two-
year-degree areas.
    Chairman Baird. Back to Mr. Bilbray's comments: we sure 
want to make sure we incentivize you to stay there and don't 
disincentivize you in a way that would motivate you to locate 
offshore. We are glad that you are committed to keeping the 
local manufacturing and education base.
    Mr. Miller.
    Mr. Miller. Yes, thank you. A couple things, first of all, 
Mr. Chairman, on the subject of Congressional caucuses that are 
pertinent to this committee hearing, I will trump your career 
and technical education caucus----
    Chairman Baird. My switch that shuts off his mic, where is 
it?
    Mr. Miller. Three years ago, I started a community college 
caucus, and I will happily join your career and technical 
education caucus, and would welcome you in the community 
college caucus.
    Dr. Pumphrey, does your daughter still live in Raleigh?
    Dr. Pumphrey. No, sir, she lives in Wilmington and works 
for a prominent textile corporation.
    Mr. Miller. Okay. I was going to ask that you mention my 
name to her.
    I disagree with one of the points made, and that is the 
outsourcing of jobs, the jobs that we are losing, are jobs that 
Americans don't want, they are dark, dirty--whatever the 
alliteration was--and by reference, less skilled and poorly 
paid. Now, I agree that this country's economic future cannot 
be unskilled jobs in labor-intensive industries. But we are 
losing very sophisticated jobs.
    Dr. Fonash, you said that at least the jobs were pausing in 
the United States, but once the industries became mature, they 
moved onto somewhere else. My observation is that more and more 
manufacturing processes or products are going, even those 
developed from American research, are going to other places 
from the outset. And I am not convinced, either, that American 
workers, although highly skilled, working hard to develop skill 
and we have had wave after wave of job loss. If you visit a 
textile factory now, it is not like the Sally Field movie. 
Those are very sophisticated operation with very sophisticated 
machinery, and we are still losing the jobs.
    And North Carolina's experience is particularly intense. I 
think we are second only to Michigan in the percentage of 
manufacturing jobs that we have lost, per capita. And North 
Carolina workers work hard and will go back to community 
colleges and community colleges are not a secret. They know 
they are there. And still we are losing jobs, and the jobs we 
have are not paying anything like the value that those 
employees are adding through their skills.
    I know that the typical answer to what we need to do about 
protecting American jobs is improve the jobs skills of our 
workforce. Our workers are working hard to try to maintain 
current skills, and we are still losing jobs, and the jobs we 
have are not being compensated, even in a way to keep up with 
inflation.
    What else do we need to be doing?
    Dr. Fonash. Well, I don't see any way of getting out of the 
game. The game is innovate or perish, and I see no way of 
getting out of the game. We used to have terrible wars, and 
people would murder each other in the millions. Today, we have 
wars, but they are much more sophisticated. They are economic, 
and the only answer, the only defense is innovation, 
innovation, innovation. I think you have to do that in 
education also. I think the jobs will constantly get more 
sophisticated. I think the pressures on education will 
constantly get more severe, but I see no end to the game. That 
is the game. I prefer it to the game that we had before, but it 
is an extremely difficult game.
    Mr. Miller. And again, I am not suggesting that we are 
going to protect unskilled jobs or relatively unskilled jobs in 
labor-intensive industries.
    Does anyone else have an answer to what else we can be 
doing other than we are simply stuck in a desperately 
competitive international marketplace, and we can't affect it?
    Ms. Poindexter. I mean I would just submit the question or 
the statement that if we continue to do the same thing, we are 
going to get the same result. And if we look at where we are 
today, we have 21st technologies. Genentech is an example of 
technology in the 21st century.
    The question I would ask you all is is our education system 
in the 21st century?
    Mr. Mittelstadt. I think that is a legitimate question as 
well, but I understand your concern. I happen to live in Allen 
Davidson, North Carolina, near Charlotte, so I am not quite in 
your district, I guess, but at least I am in the state, and 
there are some tremendous people there, and they are very 
capable of things, and what you are really saying is that they 
are upgrading their skills, but the jobs aren't there yet. But 
you are doing some other things, too, and unfortunately there 
is time lag. You have the research campus that is going in in 
Canopolis, for example, where you are really trying to do some 
things to invent new industries.
    And I really share Dr. Fonash's comment that in the macro-
sense, that is what is required. You have got to keep changing 
the game.
    I have a cousin who just passed away a little while ago at 
104. When she was in high school in the 19-teens, she would 
never have imagined millions of people in an auto industry. In 
the 40s, she couldn't have imagined millions in a television 
industry; in the 50s, maybe millions in a computer industry; 
and in the 70s, biotech or whatever. We see nanotechnology and 
hydrogen now, but there are more, and there have got to be 
more, and we have got to keep moving in that direction.
    The problem is that what happens is there is what I call an 
inevitable short-term displacement in a growing economy, and 
that is where, to me, government comes in. You have got to be 
really creative in terms of how you can handle those short-term 
displacements, how you can do the things you do. People don't 
want to move from where they are, but maybe that is where the 
jobs are. At the same time, as we have said recently, we have 
got a shortage of millions of engineers. Well, we have got 
engineers laid off all over the country, but the ones that are 
laid off don't want to go to where the jobs are, where the 
shortages are. And that is human nature. They have got that 
right, obviously.
    So one of my experiences was to be the managing director of 
GM's smallest but best plant in Uruguay in South America. One 
of the things I learned--it was a very small country--it is a 
tough damn job to run a country. And that is the jobs you folks 
have got. And if there is anything we can do to help you figure 
out how to creatively get at these things, we sure want to do 
it. It is a tough job, because exactly what you are saying is 
going to happen until some of that research comes out of some 
of those universities you have got in North Carolina, the 
research institutes you have got, things that can provide local 
jobs that are going to start there for the people that are 
there and don't want to leave there.
    Chairman Baird. Thank you, Mr. Mittelstadt.
    Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, I want to apologize because we 
really are talking about a bigger picture. We are talking about 
how you can't separate the education institutions from the 
business institutions from the governmental institutions, and 
my colleagues here, I think are, you know, very much 
predisposed to bipartisan cooperation.
    If I could just point out that one of the things that 
scares me to death, and I don't think we talk about enough here 
in Washington, is what can we do when it comes down to the type 
of benefits two-year institutions don't get, especially from 
endowments. You know, it is nonexistent for two-year 
institutions, and you get a lot of the stuff we talk about, 
huge resources coming out of the private sector, to go into the 
wealthiest of the wealthiest of the population and their 
educational institutions, but in the blue-collar neighborhoods, 
and the two-year institutions like where I went, it is no way 
in the world would you ever get any of that.
    It is a challenge, and I am not saying we can correct it 
here, but Mr. Chairman, I would just like to remind all of us 
that when we talk about competitiveness, do you realize that 
the Federal Government is operating a tax structure 100 years 
old, based on the concept that our borders would be locked 
tight by tariffs, and we are still operating off of a system 
that creates a situation to where somebody in Australia or 
China can make a product, the product is not even taxed in 
their country, imported into the United States and sold tax-
free, where if you make the same product in the United States, 
it is taxed on its labor and on its capital, and then it is 
supposed to be competitive.
    My family emigrated out of two parts of the world, one out 
of North Carolina, with the Boone family in 1790, but also from 
Australia. My cousins come in from Australia, and they say, 
darn Brian, do you realize that a Miata in Australia is more 
expensive than a Miata in California or in the United States. I 
say, of course, because they put the tax on at the sales level, 
so they are able to sell their product, and their workers are 
able to compete in the world market, where we have almost tied 
this millstone around your neck, saying you have got to drag 
this around.
    And I know this is off the subject, but I just think we 
need to really look at ourselves. When you say what can the 
Federal Government do, be brave enough to start thinking about 
redoing stuff. We destroyed one little industry that was a 
cottage industry, the manufacturing of quality arrows for 
archery. We put a 12 percent tax on all of the components, and 
what we didn't realize is that we were making it tax-free to 
import assembled arrows into the United States, and it was 12 
percent to produce an arrow in the United States. Guess how 
many businesses manufacture arrows, today, in the United 
States. Only one. Thirteen of them left the country, and we 
can't blame the industry for doing that. We can blame lack of 
trained personnel and everything else, but what we have got to 
do is blame ourselves here in Washington that we mandated that 
those jobs are exported.
    So I just ask that when we talk about the educational 
challenges or whatever, we also look at what harm are we doing 
here in Washington. And I hope, openly, as a leader of the 
majority, there is a frank discussion about do we want to 
continue with this concept? Are we so obsessed with 
redistributing the wealth and shift and shaft and the taxation, 
or do we go the basis of let us look more at, like at other 
countries, the consumption tax so our products are not taxed 
just because they are made here in the United States, that they 
have equal competition, not just here in the United States, but 
overseas.
    And I think when we talk about jobs, we can't separate it 
from, and--comments from the panel. I apologize for ranting on 
and on.
    Ms. Poindexter. You bring up a very good point, and the one 
point that probably has not been discussed is sustainability 
for these programs. And I think the representatives from the 
colleges probably would agree that when we are looking at 
sustainability across the board it is when money comes into the 
programs, especially to the local community colleges, what is 
put in place after those quick-start dollars, those CTE 
dollars, go away?
    The biotechnology industry was started 31 years ago. How 
much money is going to be able to sustain the biotechnology 
industry 30 years from now, if this quick-start money goes away 
or if continuing education dollars go away or if programs that 
were in existence five years ago to reach out to students that 
are tying to come into the two-year and go to the four-year--
what are we looking at from a sustainability perspective?
    And so I think if I were to bring anything forward, it 
would really be to look at, when you are looking at 
legislation, and when you are looking at funding certain 
programs, look at not just the here and now, but look at the 
entire industry, five to ten, 15, 20 years out, because what I 
hear from community college professors, everything is tied to 
enrollment of student and then how long their funding is going 
to last. When the funding is gone, the program goes away, and 
then that impacts industry.
    Mr. Bilbray. Mr. Chairman, may I ask for unanimous consent 
for one more question?
    Chairman Baird. Certainly.
    Mr. Bilbray. The H1-B program has a program that brings in 
skilled technical people into the country. But what a lot of 
people don't know is it requires that there be a fee paid to go 
into a pool to help address the fact that when we need to 
import certain talents, it is a sign of deficiency, and this is 
where the Federal Government really has the responsibility to 
get involved in education, when we have to modify your 
immigration policy because of the deficiency.
    Where is that money going? Do any of you know if it is 
being integrated into the educational institution effectively? 
Go ahead.
    Dr. Pumphrey. Yes, sir. When I was President of Bellingham 
Technical College, we shared $200,000 of an H1-B grant with 
Everett Community college in Everett, Washington for the 
express purpose of expanding the coverts of radiologic 
technologists that we were training in a consortium.
    Mr. Bilbray. And your opinion about the program 
expandability? Or any editorial note?
    Dr. Pumphrey. It clearly helped us expand the program, but 
it was not permanent money, so when that runs out, you are 
where you started, essentially.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Chairman Baird. Yes, I would just point out that the 
amount, if I am not mistaken, for H1-B is about $1,500 per 
application, and some recent studies have suggested that there 
is significant--in spite of the intended law, a significant pay 
differential between H1-B visa recipients and non-H1-B, in 
other words, U.S. employees. And one of the things I have tried 
to advocate is that my own belief is that we ought to tie H1-B 
number increases to evidence that the employer requesting the 
H1-B has demonstrated a commitment to local education. So in a 
case like Genentech, if they have developed the kind of 
programs that they have, they would get to go to the front of 
the queue, in terms of asking for more H1-Bs, because they have 
demonstrated a commitment to educating the U.S. workforce.
    I have got a problem in my district. I have got some 
innovative companies putting their Ph.D. level MS level 
engineers into the schools, trying to create mentorship 
programs, and there are other companies sitting by the side 
doing nothing. They can't get them involved, and these are some 
reputable companies, and they have just said, look, that is 
somebody else's business. My belief is that businesses and 
industries that have made it their business to try to educate 
the workforce of tomorrow among the U.S. students should have 
priority in the queue. If they do need H1-Bs, I am a whole lot 
more sympathetic if they can say these are all of the things we 
have done to educate the U.S. workforce; we still need some 
outside workers, versus the company that said, we haven't done 
anything substantive except pay our little fee. Those folks go 
to the back of the queue.
    Mr. Bilbray. Well, I think we may want to look at that fee 
and how it is directed because, let us face it, in two to four 
days, all of the H1-B applications are taken up, so obviously 
the market can bear more burden--and I know I have got a lot of 
high-tech companies that will kill me for this--but anybody in 
the private sector would say that if you put something out to 
bid, and you have sold for the year within four days, they 
would tell you are selling your own feet.
    Chairman Baird. I would agree with that entirely. And the 
way I would like to see that bid increase is not just 
monetarily but commitment to education, because just paying the 
money and then making schools grants is a little--I think that 
is one way to do it. I would like to see some skin in the game 
from the local manufacturers.
    Mr. Bilbray. And I would like to see how we are doing in 
oversight with the existing program, too.
    Chairman Baird. Yes, that is a good point. Maybe we could 
discuss that in this committee, actually. It might be 
appropriate.
    Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Today we have been focusing on the challenge of attracting 
more of our young people, I guess, generally, to go into these 
technical areas, but Dr. Pumphrey introduced us to a really 
more fundamental problem which shares some of the challenges we 
have been addressing today.
    When you noted, sir, that out of eight Ph.D. candidates, 
one of them was a U.S. citizen, this year China will graduate 
more English-speaking engineers than we graduate and probably 
half of our English-speaking engineers are Chinese students or 
somewhere near that.
    I worked eight years for IBM in another life, and we knew--
and this was way back, I left in '75, so that puts it in a 
timeframe--we knew at IBM that unless something happened in our 
country that we were going to lose our superiority in computers 
to Japan, because then, Japan was turning out more, and at 
least as good, perhaps better, scientists, mathematicians, and 
engineers than we were, and there was no way that we could 
continue to best them unless we turned to and produced more 
high quality scientists, mathematicians, and engineers.
    Today, of course, the challenge is China. I was stunned 
when I was told that India's equivalent to our MIT is probably 
superior to ours because they have 100 applicants for every 
student they accept. It is not that we aren't capable. We are 
the most creative, innovative society in the world. But a 
society gets what it appreciates, and we just do not, flat out, 
appreciate people in these technical, scientific, and 
engineering areas. If young men go into those areas, they are 
called geeks and nerds. If they make good grades, then pretty 
girls won't date them. And a really bright girl plays dumb so 
that she can get a date. You know, that tells you there is 
something really wrong with the society in which this kind of 
thing occurs.
    And I suggest, panel, that we need a fundamental change in 
our society. Society gets what it appreciates. And you watch 
the people that are invited to the White House and slobbered 
all over. It is not academic achievers. It is people from 
Hollywood and people from the sports area. And I don't know how 
to get that fundamental change, but we are at serious risk. We 
cannot continue to be the world's premier economic power and 
the world's premier military power when other countries are 
turning out far more scientists, mathematicians, and engineers 
that are as well trained as ours are.
    This is a huge, huge challenge, and our future as a premier 
nation depends upon how we address this. How do we change the 
culture so that pursuits in these areas are really appreciated 
because we are not going to get the scientists, mathematicians, 
and engineers, and there will be no new companies to which we 
need to attract these technical people we are talking about 
today if we don't turn out enough scientists, mathematicians, 
and engineers. How do we change our society so that we really 
appreciate those people?
    Dr. Fonash. If I may attempt an answer at that: I don't 
know how to change it, but I know that the mechanism is--I 
don't know how to actually carry out the mechanism, but the 
mechanism is marketing. I look at CSI, Crime Scene 
Investigation, these TV shows. Now all of the kids want to be 
forensic scientists.
    The media has immense control over middle school and high 
school kids. It shapes their thinking. You know, they want this 
because they were told they should have it. They want to be 
forensic scientists because that looks pretty cool on 
television. Engineers don't look cool. Scientists don't look 
cool. The media doesn't depict us as being cool. We are, as you 
say, nerds, geeks. Something has to be done in the basic 
marketing. This whole culture runs on marketing, and that is 
the area that has to be addressed, I believe.
    Mr. Bartlett. Thank you very much, Mr. Chairman. This is a 
real challenge, and if we don't collectively address this and 
succeed in changing it, we face a pretty uphill role in the 
future.
    Chairman Baird. Thank you, Dr. Bartlett.
    I think one of the positive things about the high-tech 
revolution is that the nerds and geeks have done pretty well. 
And Dr. Bartlett often raises this issues of pretty girls won't 
date the guys with the doctorate degrees. My wife is right 
fetching, and out of fairness, she has got a Ph.D. as well.
    But I want to thank our panelists here for their 
contributions today, for their insights. The record will remain 
open for a couple of weeks. If members of this panel, or if you 
folks, want to add something to it, by all means, let us know, 
and I think we have got good grist for the mill here now as we 
work for things, and I think, equally importantly, some very 
good models for how things are working.
    And one of the things we have said, we need to market those 
models as well so that other community colleges, other 
industries, can follow the kinds of examples of Genentech and 
the folks Dr. Fonash and Dr. Pumphrey and spoke about, and Mr. 
Mittelstadt, helping your members hear the kinds of examples we 
have got here of successes where the manufacturers themselves 
and the industries themselves have worked with the community 
college. Frankly, that is a lot faster turnaround than the 
appropriations process. Stick around the next few days, and you 
will see what I mean by that.
    Thank you very much. And with that, this committee is 
adjourned. Thank you to the panel.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Gerald Pumphrey, President, South Puget Sound Community 
        College

Questions submitted by Chairman Brian Baird

Q1.  How can industry assist community colleges to market their 
programs? You mentioned in your testimony that companies themselves are 
better than community colleges at selling their jobs to potential 
employees. Could industry be doing a better job at marketing to 
students?

A1. Workforce and labor market demand issues seem to be ones on which 
companies within an industry are usually willing to approach 
collaboratively. It is useful to jointly develop, fund, and implement 
campaigns to educate the public about career opportunities within an 
industry. Many colleges struggle with marketing costs, particularly at 
the level of individual programs. Funding for the development and 
publication of electronic and print media that is tailored to the local 
college and employment opportunities in the companies it serves would 
be beneficial. Potential students know that the college's product is 
education, and they know that it is the employers who have jobs to 
offer. It is more powerful when company representatives join college 
faculty and/or recruiters when they visit high schools and recruitment 
events.
    There are many wonderful career opportunities in technical fields 
that have very little public visibility. Visibility matters. Colleges 
have experienced strong enrollment in culinary and forensic programs 
not due to any overwhelming expansion of job openings, but due in large 
part to the visibility conferred by television programming in recent 
years. Meanwhile, employment opportunities in servicing technically 
sophisticated equipment and in manufacturing are going begging for 
qualified applicants. Industry-wide approaches to elevating the 
visibility of these jobs and the rewards they provide is important; the 
colleges cannot do it alone.

Q2.  Dr. Fonash talked about the benefits of a research university 
affiliation in his testimony. If a community college does not have 
access to such an institution, or the area of technical training is 
outside the purview of most universities, can the National Science 
Foundation Advanced Technology Education (ATE) centers provide local 
programs with similar guidance? In what aspect are program like ATEs 
most useful?

A2. The NSF ATE program has been very useful in aggregating technical 
expertise, developing and disseminating curriculum and instructional 
materials, and providing expert consulting services to the colleges 
with similar programs. In many cases, they have been instrumental in 
developing skill standards that bring consistency to and elevate the 
quality of training programs. In some cases, this has resulted in 
credentials that promote the geographic mobility of program graduates. 
No doubt their impact has been greatest in the colleges and communities 
where they are located, but there have also been significant regional 
and national impacts from their work with other colleges. There is no 
question the model has provided value.
    The model shared by Dr. Fonash, based on his work with the Center 
for Nanotechnology Education and Utilization at Pennsylvania State 
University, includes an ATE Center. However, this model also has an 
explicit regional focus operationally defined as the State of 
Pennsylvania. It leverages the intellectual capital of a major research 
university and the advanced technology concentrated in the ATE Center 
by a formal articulation with all of the state's 14 community colleges. 
The students spend their first three semesters completing relatively 
inexpensive academic and fairly generic technical courses in their home 
communities. They spend the fourth semester in a deep immersion in the 
rich nanotechnology environment afforded by the center. This is a more 
powerful model than many of the ATE Centers for effecting a strong 
regional impact and for the intensity of involvement of students from 
outside the host institution. It will not be possible for all ATE 
Centers to develop along these lines, but it is well worth emulating 
where it is possible to do so.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  In your experience, has industry shown more interest in community 
colleges creating degree programs or certificate programs?

A1. In my experience, which I would characterize as being insufficient 
for understanding as entirely representative, industry has shown most 
interest in two types of programs. The first is a short-term, highly 
customized program, usually delivered on site in conjunction with a 
start-up, relocation, expansion, or adoption of a new technology. These 
are typically directed at new hires or at an existing group of 
employees who need new skills. Most often, these programs do not result 
in academic credit.
    The second type of program in which I have seen a lot of industry 
interest is a degree program, usually an Associate in Applied Science 
or equivalent degree. Companies have often initiated discussions about 
this option at the same time they have discussed their customized, 
short-term training with us. Interest in the degree programs is often 
related to the development of a sustainable source of new employees 
over the long-term or to support advancement and promotion of their 
current employees. A lot of this interest has paralleled the evolution 
of organizational models that devolve responsibility for decision-
making and quality control processes to front-line workers and their 
immediate supervisors.
    I have seen less interest in certificate programs, even in cases 
where they might be sufficient or even more appropriate. Some of this 
may have to do with the value employers may place on the ability to set 
and achieve longer-term goals rather than the occupationally relevant 
content.

Q2.  How do the different programs affect the quality of opportunities 
for students?

A2. In general, the more relevant programs are in preparing students 
for specific and available employment positions, the better the 
opportunities will be for the student both in the quality of the 
education they receive and their employment prospects upon graduation. 
To keep programs relevant, colleges must at a minimum maintain an 
ongoing dialogue with the industries the programs support. That 
dialogue serves to keep curriculum current, define professional 
development objectives for the faculty, and apprise the college of the 
technology the students will encounter upon employment. If the college 
has an effective partnership with the industry, the industry will often 
contribute content knowledge to inform the curriculum, provide training 
or return-to-industry experiences for faculty, and assist with 
acquisition of current technology.
    Graduates who have benefited from this participation are more 
likely to possess the skills expected by the sponsoring industry. As a 
result, their employment prospects are enhanced. Strong relationships 
between a college and the employers they serve benefit all concerned, 
including students and taxpayers. Individual companies, large and 
small, experience changes in fortunes. Over time, the most stable 
partnerships involve groups of similar companies within an industry 
sector. This is not to argue against strong partnerships with 
individual companies, but to acknowledge the inherent risks to 
sustainability for a program that depends on a single sponsor or 
partner.
                   Answers to Post-Hearing Questions
Responses by Stephen J. Fonash, Center for Nanotechnology Education and 
        Utilization, Pennsylvania State University

Questions submitted by Chairman Brian Baird

Q1.  In your testimony you note that community colleges are often not 
well equipped to aggressively market their program to potential 
students. Have you seen industry take an active role in marketing their 
technician and skilled production jobs to potential employees? Could 
the private sector companies you work with be doing more to attract 
students to vital training programs?

A1. In general, community colleges do not effectively package or market 
their technical programs. Those that have the ability to offer cutting 
edge technology taught by knowledgeable faculty with state-of-the-art 
facilities, and that have pathways in place to four-year degrees, offer 
potential students outstanding value and opportunity. Such two year 
programs offer much more hands-on access to `` `real' equipment than 
four-year engineering and science degrees thereby giving students a 
meaningful taste of what it is like to work in a technology field and 
meaningful skills to do so after just two years of training. This 
immediate immersion and the chance for technical jobs after two years 
is very helpful to students who are not sure if they want a career in 
science and technology and are ``trying to find themselves.'' They can 
immediately get a ``feel'' for what these careers are like and can make 
more informed decisions. The programs that have pathways in place to 
four-year degrees also offer potential students the opportunity, if 
they so choose, of a lifetime of learning possibilities. These 
advantages, opportunities, and possibilities could and should be 
packaged and marketed by community colleges as a ``two-year degrees--
doors to a lifetime of opportunities'' package. To make it all even 
better, this whole package of opportunities comes with a tuition price 
tag that is generally much less than the tuition costs of the four-year 
institutions.
    While community colleges do not market these opportunities well, 
industry cannot be expected to greatly help in two-year degree 
marketing--either by assisting the colleges or through direct industry 
efforts. There are some exceptions. For example, industry associations 
such as the Semiconductor Industry Association (SIA) and the National 
Association of Manufactures (NAM) do conduct marketing efforts. 
However, individual companies face enormous competitive pressures, 
cannot afford to aid in marketing two-year degree programs, and must 
focus on their immediate needs in order to stay in business. Industry 
understandably wants students with the skills required to meet today's 
immediate challenges, which means that they want students to learn 
today's job skills. Unfortunately, these jobs--and their requisite 
skills--may migrate out of the country by tomorrow. Educators need to 
compensate for this by making sure students are taught career skills 
and develop a realization for the need for a lifetime of learning. 
Students have to develop a broad knowledge base for their ``economic 
survival'' over the course of their careers and they must learn to be 
intellectually ``fast on their feet'' so they can evolve as technology 
evolves.
    Although industries are focused on surviving in today's 
international markets, they can be a very vital partner in the 
``education for a career approach.'' They have a strong sense of what 
tomorrow will bring. Consequently, their help is needed by educators in 
making sure curricula for the ``two-year degrees--doors to a lifetime 
of opportunities'' package continuously develop and improve. Since the 
economic forces industry faces will not allow individual companies to 
play major roles in developing and promoting educational opportunities, 
that burden must fall to industry associations, State and Federal 
Government. Among these, only government can provide the stability, 
perspective, and resources needed to plan and educate beyond this 
quarter's needs.

Q2.  In your testimony you state the benefits that accompany a tech-
training program paired with a research university. For community 
colleges without access to a university, or for programs outside areas 
of interest to universities, can ATEs serve a similar role as research 
universities?

A2. The National Science Foundation's ATE program strives to make sure 
that there are diminishing numbers of community colleges without access 
to a research university. One of the key ways that the ATE program is 
doing this is by serving as a catalyst to bring together community 
colleges and research institutions to (1) share research university 
resources and expertise, (2) enable community college faculty 
enrichment, and (3) develop new two-year to four-year degree programs 
and pathways. It is very important to point out that, for this type of 
leveraging to work, not every community college needs to be directly 
linked to a research university in its locale. New and effective 
educational programming developed by an ATE center or project is 
quickly disseminated across the country through the ATE network. As an 
illustration, the concepts developed at ATE Center for Nanofabrication 
Manufacturing Education at Penn State are being leveraged by community 
colleges in more than 20 states. In addition, the approaches of this PA 
ATE center are being extended beyond nanotechnology to include programs 
areas such as biotechnology, information science and technology, 
engineering technology, and others.
    We would not suggest that ATE Centers can or should even try to 
provide community colleges with the kinds of resources that research 
universities can. However, ATE centers and projects around the country 
are playing a crucial role in promoting innovative approaches to 
technical education, including linkages between research universities 
and community colleges. We are also observing a growing interest among 
research universities in participating in these kinds of partnerships. 
Research intensive Land Grant universities are particularly engaged 
because these arrangements help them fulfill their three-part mission 
of education, research, and service. Research universities also 
recognize that by strengthening community college technical programs 
and creating student pathways from associate to baccalaureate degrees, 
the universities are helping to develop a pool of qualified future 
upper division undergraduate and graduate students for their own 
programs, including students from under-represented groups which 
community colleges often tend to disproportionately serve. This is a 
win-win-win arrangement for community colleges, research universities, 
and, most importantly, students--an arrangement that the ATE program is 
helping to seed and promote through its centers and projects.

Q3.  Can you please describe in more detail the career pathway programs 
you mentioned in your testimony? How many high school students have 
participated in these programs for advanced manufacturing through the 
Center for Nanotechnology Education and Utilization affiliated 
community colleges and have you been able to track these students: What 
factors attract high school students to a two-plus-two program?

A3. The PA Nanofabrication Manufacturing Technology Partnership has had 
423 students who have completed the capstone semester total immersion 
in nanotechnology fabrication, synthesis, and characterization. Those 
students in this group that passed through since the establishing of 
our ATE center have been able to utilize two types of education 
pathways: the two-year degree to four-year degree (2+2) pathway and the 
high school/vo-tech school to the two-year degree to four year degree 
(2+2+2) pathway. Before the efforts of our ATE center, there were, in 
most cases, no clear 2+2 pathways from two-year to four-year degree 
granting schools in PA. Today, using nanotechnology as a coalescing 
theme, there are 2+2 pathways that lead from all 22 nanotechnology two-
year degrees available in PA to four-year degrees. These available 
four-year degrees are in engineering management, various areas of 
engineering technology, biology with a nanotechnology concentration, 
chemistry with a nanotechnology concentration, and physics with a 
nanotechnology concentration. One can go to our web site at 
www.cneu.psu.edu, click on a specific two-year degree site on the map 
provided, and immediately be given the available four-year degrees set 
up for that specific two-year degree site.
    The high school/vo-tech school 2+2+2 nanotechnology-based pathways 
in PA that have resulted from the efforts of our ATE center currently 
number thirty-one. The factors that we find attract high school 
students to 2+2+2 nanotechnology-based pathways include: (1) the 
opportunity to take courses at a community college campus, (2) access 
to community college facilities (e.g., computers, sports facilities), 
(3) the ability to get community college credit for high school courses 
in cases where high school teachers are certified by the colleges, and 
(4) the ability to lighten their college credit load.
    The 2+2 and 2+2+2 pathways have been set up recently as part of our 
ATE activities; consequently our tracking data are limited. In a first 
survey taken in 2005, we found that 36 percent of the students were 
continuing their degrees past the two-year level. However, this cohort 
is not entirely made up of students pursuing 2+2 programs since some 
were students who came from four-year degree programs. A survey aimed 
at more precise 2+2 data is currently underway.
                   Answers to Post-Hearing Questions
Responses by Eric Mittelstadt, CEO, National Council for Advance 
        Manufacturing

Questions submitted by Chairman Brian Baird

Q1a.  The National Association of Manufacturers' 2005 Skills Gap 
Report--A Survey of the American Manufacturing Workforce stated that 80 
percent of the respondents to the study's survey indicated moderate to 
severe difficulty in finding enough qualified personnel for their 
manufacturing business. The authors of the study state that the 
majority of those responding to this survey were small and medium sized 
businesses, with 500 or fewer employees. In your opinion, is the 
workforce shortage concentrated in this sector of the manufacturing 
industry?

A1a. Today perhaps yes, but as more baby-boomers retire it is clear 
companies of all sizes face the problem. Since most jobs in the 
manufacturing sector are found in small and medium sized companies, 
this is where employers increasingly encounter problems in recruiting 
both production workers and technical workers. Both of these require 
increasingly technical knowledge and skills as manufacturers of all 
sizes use more advanced processes, equipment and methods to meet the 
challenges of the hyper-competitive global economy of the 21st century. 
And, in fact, this is true in all industries, not just manufacturing. 
For example, health care, banking, sales, and on and on, are all 
utilizing ever more advanced technology to become more productive in 
the competitive global economy in which we live. This says the shortage 
is or will be felt in all sectors and by all sizes of companies.

Q1b.  What distinct challenges do small and mid-sized manufacturers 
face in workforce development and how do they address these?

A1b. Since many small and medium sized manufacturers lack the financial 
or professional resources to develop focused recruitment programs to 
attract new workers, they often must rely on ``word of mouth'' or 
newspaper advertising to find new workers. Since they also do not have 
resources to design and conduct in-house training programs, most newly-
hired workers are only given job orientation and some on-the-job 
training by the company's older workers. Again due to lack of resources 
to even look at something new, only rarely do the small and medium 
sized companies seek help from One-Stops or WIBs, or other federal, 
State and local programs, preferring to ``do it the way we have always 
done it.''
    This suggests the necessity for new approaches by government to 
make such programs easier to access and easier to use for companies too 
strapped for resources to have the time to sort them out, so they can 
leverage their efforts and satisfy their needs with the programs 
available.

Q2a.  Dr. Pumphrey and Dr. Fonash stated in their testimony that 
community colleges typically lack the resources to effectively market 
their tech-training programs. Could the private sector take more of an 
active role attracting potential students to tech-training and 
ultimately jobs as technicians or skilled production workers?

A2a. In view of the ``rate of change'' in the manufacturing sector, 
there is an increasing need for manufacturers to assume a greater role 
in working with post-secondary educators. Many technology-oriented 
companies already work with local community/technical colleges to help 
their workers as well as future job candidates acquire the technical 
knowledge and skills the companies need to be productive, innovative, 
and competitive in the global marketplace. Where smaller manufacturers 
have established close working relationships with community and 
technical colleges, students hear about the more technical and better 
paying job openings and are more responsive to job postings or ``word 
of mouth'' information.
    The ``Dream It--Do It'' campaign approach developed by the National 
Association of Manufacturers (NAM) is one successful approach whereby 
businesses of all sizes can work together with government and educators 
in an organized and accountable way to get the message across. More 
regions around the country should be using this approach.
    But because of those serious resource constraints for the vast 
majority of manufacturers mentioned above, companies, even working with 
educators, cannot do it by themselves. This applies to community 
colleges as well. As I said in my testimony, Congressional and 
Presidential candidates, as well as State, regional and local 
candidates, also can all help by making clear the national need for 
qualified people in the promising technician and skilled production 
jobs of today and the future. This needs to become a recognized 
national priority, and in our nation that requires government leaders 
of all parties to work hard to communicate the criticality of the need 
to us all. That includes doing so in political campaigns, where media 
pays attention to what candidates say, and reports on it to the public 
at large.

Q2b.  What type of initiatives can industry take to professionalize or 
increase the prestige of these types of jobs?

A2b. Manufacturers seeking to attract students and/or new workers with 
``the right technical knowledge and skills'' should develop continuing 
relationships with post-secondary institutions (community/technical 
colleges, colleges and universities with STEM-focused programs, and 
graduate level programs focusing on science and technology) and with 
deans, department heads, classroom instructors, counselors, and other 
staff in these institutions.
    Small and medium sized manufacturers concerned about the 
availability of young, entry-level workers should develop similar 
working relationships with local high schools and secondary-level 
technical schools and their teachers and staff to educate students 
about the more technical and upwardly mobile career opportunities in 
their companies. Where NAM's ``Dream It--Do It'' campaigns are 
operating, manufacturers should work closely with local program 
sponsors to inform high school administrators, teachers and students of 
the job opportunities available in their companies for graduates having 
the increasingly technical knowledge and skills needed in 21st century 
manufacturing entities.

Q3.  What would be the most effective measures industry could take to 
bridge the gap between industry's fast paced rate of change and the 
inability of most community college tech-training programs to respond 
at a similar rate?

A3. Manufacturers of every size must establish ongoing relationships 
with educators at all levels to make sure teachers, counselors, 
professors, and administrators are familiar with the rapid changes 
occurring in their companies, the skills required for success in this 
rapidly changing competitive environment, and the capabilities required 
to succeed in the challenging new jobs in manufacturing. Manufacturers 
must be willing to assign executives to work year-round on industry-
education partnerships at the post-secondary and secondary levels. . 
.to designate team leaders and supervisors to help develop community/
technical college curricula aimed at meeting the knowledge and skills 
needs of students preparing for jobs in the manufacturing sector. . .to 
ask skilled workers to participate in secondary classroom presentations 
about career opportunities in their companies.
    Here again though, especially for small and medium sized companies, 
national policy needs to find creative ways to free up the very scarce 
resources and time those companies need to do this essential task. 
Examples could be targeted tax reductions for companies that 
participate in such activities, streamlined regulatory compliance 
requirements to free up scarce time for these more constructive things, 
etc. Innovation and creativity in government is as important as in 
industry and education, because our nation is competing internationally 
just as much as are our industries, our educational institutions and 
our workers.
    Further, national policy requires that government at all levels be 
challenged to find creative ways to help companies of all sizes, 
educators at all levels, workers in all companies, understand the 
importance of the proper technical preparation to their own and their 
children's success. We live in a world where technology will be 
increasingly critical to success in all fields, including but not 
limited to manufacturing. Companies cannot do this by themselves. It 
must become a national priority for all sectors of our great nation, 
government, companies, educators, workers, parents, everyone, if we 
hope to get this vital message across. This is the only way we can 
continue to enjoy the highest standard of living in the world and to be 
a world power in this century and on into the future, given that we 
will never have as many people as some other nations, India and China 
being only the most visible now.
                   Answers to Post-Hearing Questions
Responses by Monica L. Poindexter, Associate Director, Corporate 
        Diversity, Genentech, Incorporated

Questions submitted by Chairman Brian Baird

Q1.  You stated in your testimony that one of the biggest challenges 
Genentech faced when developing its partnership training programs was 
meeting the company's ``just-in-time'' workforce needs. How did you 
address this challenge? How did your company balance Genentech's fast 
paced needs with the community colleges' more deliberative nature and 
structure, as well as with industry's growing desire for more versatile 
employees?

A1. During the early part of 2000, the Genentech College Programs 
department partnered with managers in our company's manufacturing 
department to assess what their future hiring needs were and determine 
how to secure skilled workers for those jobs. From those early meetings 
a Manufacturing Task Force was formed to address where and how we would 
create the necessary talent pool. We identified the number of positions 
we would need over the next 18-24 months and joined with our community 
college partners to develop a plan to market, screen, interview, enroll 
and graduate students out of the 14-week certificate program. Graduates 
of the program were then offered interviews for Paid Work Experience 
co-op slots at Genentech.
    To meet our continuing need for skilled workers we worked with the 
participating schools to increase the number of students participating 
in these programs. As Genentech's hiring needs have periodically 
decreased we have worked with the schools to explore job opportunities 
for the students at other biotechnology companies in the area.
    The nature of the program we developed with the schools produced 
workers with a versatile set of skills well-suited to biotech 
manufacturing. Since the program was developed in a cooperative manner 
between industry and academia, students receive not just academic 
training but also hands-on experience that prepares them to be useful 
employees.

Q2.  In your testimony you talked about the need for long-term planning 
when developing tech-training programs, especially around issues of 
funding and sustainability. How can industry, government and academia 
best work together to develop and sustain tech-training programs?

A2. There is a great need for industries like biotechnology to have 
well-trained, highly skilled workers available to operate our 
manufacturing facilities. Programs like the ones we have developed with 
local community colleges are an important element of ensuring that a 
trained workforce is available. But we cannot depend on these programs 
alone to provide the workforce we will need in the 21st Century.
    Too many of our students fail to receive the basic education 
necessary to prepare them for work in the leading 21st Century 
industries. A greater focus on math and science education, as well as 
more opportunities for specialized skill training, would help to 
provide students with usable skills. I also believe the Federal 
Government needs to provide long-term funding streams for career 
technical programs to develop the future skill sets needed to support 
high-wage and high-growth industries.
    Congress should look at policies to create incentives for industry 
to co-create curriculum and paid work experience programs not just for 
students but for teachers as well. Skill and course upgrade programs 
are critical for the development of a future workforce. Finally, 
Congress should also identify the attributes employers seek in 
industries such as biotechnology and determine how well current career 
technical education programs train students to meet those needs.

                                   

</pre></body></html>
